<html>
<title> - HUMAN RIGHTS VIOLATIONS IN RUSSIAN-OCCUPIED CRIMEA</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





114th Congress                              Printed for the use of the
1st Session           Commission on Security and Cooperation in Europe
_____________________________________________________________________



 
       HUMAN RIGHTS VIOLATIONS IN RUSSIAN-OCCUPIED CRIMEA




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                         DECEMBER 11, 2015


                       Briefing of the
       Commission on Security and Cooperation in Europe
_____________________________________________________________________

                      Washington: 2016


Commission on Security and Cooperation in Europe
        234 Ford House Office Building
             Washington, DC 20515
                202-225-1901
             <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b5a5b5b396bbb7bfbaf8beb9a3a5b3f8b1b9a0">[email&#160;protected]</a>
             http://www.csce.gov
                @HelsinkiComm



                  Legislative Branch Commissioners

              HOUSE                                      SENATE
CHRISTOPHER H. SMITH, New Jersey              ROGER WICKER, Mississippi,
  Chairman                                     Co-Chairman
ALCEE L. HASTINGS, Florida                    BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                   JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                     RICHARD BURR, North Carolina                  
STEVE COHEN, Tennessee                        JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                         TOM UDALL, New Mexico
RANDY HULTGREN, Illinois                      SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania                   
LOUISE McINTOSH SLAUGHTER, 
New York


                     Executive Branch Commissioners

                         Department of State
                        Department of Defense
                        Department of Commerce

                                 [ii]



ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and Cooperation 
in Europe [OSCE]. The membership of the OSCE has expanded to 56 
participating States, reflecting the breakup of the Soviet Union, 
Czechoslovakia, and Yugoslavia.

The OSCE Secretariat is in Vienna, Austria, where weekly meetings of the 
participating States' permanent representatives are held. In addition, 
specialized seminars and meetings are convened in various locations. 
Periodic consultations are held among Senior Officials, Ministers and Heads 
of State or Government.

Although the OSCE continues to engage in standard setting in the fields of 
military security, economic and environmental cooperation, and human rights 
and humanitarian concerns, the Organization is primarily focused on 
initiatives designed to prevent, manage and resolve conflict within and 
among the participating States. The Organization deploys numerous missions 
and field activities located in Southeastern and Eastern Europe, the 
Caucasus, and Central Asia. The website of the OSCE is: <www.osce.org>.

ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to monitor 
and encourage compliance by the participating States with their OSCE 
commitments, with a particular emphasis on human rights.

The Commission consists of nine members from the United States Senate, nine 
members from the House of Representatives, and one member each from the 
Departments of State, Defense and Commerce. The positions of Chair and Co-
Chair rotate between the Senate and House every two years, when a new 
Congress convenes. A professional staff assists the Commissioners in their 
work.

In fulfilling its mandate, the Commission gathers and disseminates relevant 
information to the U.S. Congress and the public by convening hearings, 
issuing reports that reflect the views of Members of the Commission and/or 
its staff, and providing details about the activities of the Helsinki 
process and developments in OSCE participating States.

The Commission also contributes to the formulation and execution of U.S. 
policy regarding the OSCE, including through Member and staff participation 
on U.S. Delegations to OSCE meetings. Members of the Commission have 
regular contact with parliamentarians, government officials, 
representatives of non-governmental organizations, and private individuals 
from participating States. The website of the Commission is: 
<www.csce.gov>.

                                [iii]
                                
                                

                      HUMAN RIGHTS VIOLATIONS IN

                       RUSSIAN-OCCUPIED CRIMEA



                         December 11, 2015

                           COMMISSIONERS

                                                                             Page

Orest Deychakiwsky, Policy Adviser, Commission on Security and Cooperation 
in Europe...............................................................       1

Jonas Wechsler, Senior Adviser, U.S. Department of State, Commission on 
Security and Cooperation in Europe......................................      20


                                 PARTICIPANTS

Ivanna Bilych, Co-Founder and President of VOLYA Institute for Contemporary 
Law and Society, Board Member of the Ukrainian American Bar Association...     3

Bohdan Yaremenko, Chairman of the Board of the Ukrainian Nongovernmental 
Organization, Maidan of Foreign Affairs, Former Ukrainian Diplomat.......      7

Andriy Klymenko, Chief Editor of Black Sea News, Economist [with 
interpreter Svitlana Krasynska]..........................................     12

Yuriy Yatsenko, Maidan Revolution Activist, Recently Released Political 
Prisoner [with interpreter Bohdan Pechenyak].............................     14

Yaroslav Brisiuck, Deputy Chief of Mission, Embassy of Ukraine to the 
United States............................................................     16


                               APPENDIX

Prepared statement of Ivanna Bilych......................................     27

Prepared statement of Bohdan Yaremenko...................................     31

Prepared statement of Andriy Klymenko....................................

Prepared statement of Yuriy Yatsenko.....................................

Prepared statement of Anna Fotyga, Member of the European Parliament, Chair 
of the Subcommittee on Security and Defense..............................


                               [iv]






                    HUMAN RIGHTS VIOLATIONS IN
                     RUSSIAN-OCCUPIED CRIMEA
 
 
                           ___________


                        DECEMBER 11, 2015

    Commission on Security and Cooperation in Europe

                        Washington, DC

The briefing was held at 2 p.m. in room B-318, Rayburn House Office 
Building, Washington, DC, Mr. Orest Deychakiwsky, Policy Adviser for the 
Commission on Security and Cooperation in Europe, moderating.

Commissioner present: Jonas Wechsler, Senior Adviser, U.S. Department of 
State, Commission on Security and Cooperation in Europe.

Panelists present: Ivanna Bilych, Co-Founder and President of VOLYA 
Institute for Contemporary Law and Society, Board Member of the Ukrainian 
American Bar Association; Andriy Klymenko, Chief Editor of Black Sea News, 
Economist; Bohdan Yaremenko, Chairman of the Board of the Ukrainian 
Nongovernmental Organization, Maidan of Foreign Affairs, Former Ukrainian 
Diplomat; Yuriy Yatsenko, Maidan Revolution Activist, Recently Released 
Political Prisoner; and Yaroslav Brisiuck, Deputy Chief of Mission, Embassy 
of Ukraine to the United States.

Mr. Deychakiwsky. Good afternoon. My name is Orest Deychakiwsky. I'm a 
policy adviser here at the U.S. Helsinki Commission.

On behalf of Chairman Congressman Chris Smith and the leadership of the 
Commission, welcome to this Helsinki Commission briefing entitled ``Human 
Rights Violations in Russia and Occupied Crimea.''

Russia's forcible and illegal occupation of Ukraine's sovereign territory 
of Crimea in March 2014 resulted in a deplorable human rights situation as 
well as other serious consequences that continue to this day.

Changes in government and legal framework in Crimea following the attempted 
annexation have had a toxic impact on human rights and fundamental 
freedoms. Violations of civil, political, social, economic and cultural 
rights are widespread, especially against those who oppose Russian 
occupation, including Crimean Tatars and other ethnic, including, of 
course, Ukrainian and other ethnic political and religious groups.

Except for a recent spike because of the disruption of electricity 
supplies, Crimea has not been in the news all that much lately, certainly 
not compared to the months immediately following Russia's occupation.

Now, this egregious act of aggression stands in flagrant violation of both 
bilateral Russian/Ukrainian and numerous, numerous international agreements 
and international law. The international community has not recognized the 
attempted annexation.

As far as the United States, both the administration and Congress have 
addressed the Russian occupation of Crimea in various ways, including 
through legislation and through concrete sanctions against Russia, 
including Crimea-specific sanctions.

And just a few days ago, in Kyiv, Vice President Biden repeatedly vowed 
that the U.S. will never recognize Russia's occupation of Crimea. Just one 
of his quotes was, ``This attempted annexation is contrary to international 
law, it is wrong, and we will never accept it under any circumstances.''

The Helsinki Commission, too, has addressed this issue, repeatedly 
stressing that Russia's invasion and subsequent behavior has violated not 
one, not two, but all ten core OSCE principles enshrined in the 1975 
Helsinki Final Act.

And to cite one example or activity, at last year's annual session of the 
OSCE Parliamentary Assembly, which encompasses 56 OSCE country parliaments, 
our then-chairman Senator Ben Cardin's resolution strongly condemned, and I 
quote, ``the clear, gross and uncorrected violation of the Helsinki 
principles of the Russian Federation with respect to Ukraine, including the 
particularly egregious violations of that country's sovereignty and 
territorial integrity.''

The resolution passed by a substantial margin, despite fierce Russian 
opposition. And then this last year there was a follow-up Canadian 
resolution, a follow-up to Senator Cardin's resolution of 2014, which also 
passed despite Russian opposition. That's just one illustrative example.

It's important that all of us keep shining the light on Crimea, despite the 
understandable attention to the occupied territories of the Donbas where 
Russia and its proxies continue to flaunt the Minsk agreements, or to the 
humanitarian crisis that has resulted from Russia's aggression, or for that 
matter to the whole issue of combating corruption, Ukraine's greatest 
internal threat.

But it's important for us not to forget what is also happening to the 
people of Crimea who suffer under Russian misrule.

So we're very pleased to have with us today four experts, including three 
who reside in Ukraine, to help shine that light. They'll help us better 
understand what's happening in Crimea today--not only the human rights 
situation, but indeed what some have said is the peninsula's colonization 
and militarization.

And we'll also hear directly from someone who himself has been a direct 
victim of Russian human rights abuses.

Before we start, I just also want to introduce my colleague Jonas Wechsler, 
who's our State Department senior adviser at the Helsinki Commission.

We'll start with Ivanna Bilych, who will present the findings and 
recommendations of the comprehensive, truly comprehensive report, ``Human 
Rights on Occupied Territories: The Case of Crimea,'' prepared by an 
international team of lawyers that was led by her and supported by the 
VOLYA Institute and the Ukrainian American organization Razom.

Let me at the outset thank Ivanna as this briefing was really her 
brainchild. Indeed, a similar briefing was organized by Ivanna, along with 
her colleague Bohdan Pechenyak, who is here and who will serve as an 
interpreter at the U.N. on Wednesday.

And also I want to introduce Svitlana Krasynska who will interpret for 
Andriy Klymenko. She's also a member of the VOLYA Institute.

OK, so the formal introductions. Ivanna Bilych holds a master's degree in 
international affairs from Columbia University and also an L.L.M. from New 
York University School of Law. She also received L.L.B. and L.L.M. degrees 
from Kyiv National Taras Shevchenko University. Ivanna is a lawyer and 
activist. She represented Viktor Smalyy, an attorney prosecuted by the 
former regime, the Yanukovych regime, in Ukraine. She's a former board 
member and general counsel of Razom, a board member of the Ukrainian-
American Bar Association, a co-founder and president of the relatively 
newly established VOYLA Institute.

Next after her Bohdan Yaremenko will be speaking. He's chairman of the 
board of the Ukrainian nonprofit organization Maidan for Foreign Affairs. 
Bohdan is a former diplomat, having worked at the ministry of foreign 
affairs of Ukraine as vice-council at the consulate general of Ukraine in 
New York, the head of the U.S. and Canada Department, and he was consul 
general of Ukraine in Edinburgh as well as in Istanbul.

Andriy Klymenko is the chief editor of Black Sea News and a prominent 
economist, originally from Crimea. He was fortunate to escape the 
persecution of self-proclaimed Crimean and Russian authorities. He's the 
author of another report on the situation of Crimea, an Atlantic Council 
and Freedom House report that's available on the Freedom House website. 
That report was produced on the first anniversary of the Crimean invasion 
back in March. Some of you were probably at the rollout of that.

And finally, Yuriy Yatsenko is an activist of the Revolution of Dignity, 
was illegally imprisoned in Russia on political grounds in May 2014. After 
his refusal to cooperate with the Russian FSB, he suffered brutal torture 
and criminal prosecution. He was released after a year imprisonment thanks 
to the coordinated work of a lawyer, human rights organizations and 
international pressure. After the release, Yuriy Yatsenko became a speaker 
of the Let My People Go campaign as the first rescued person from the list 
of Ukrainian nationals persecuted on political grounds in the Russian 
Federation.

And we'll start then.

Ms. Bilych, Ivanna, the floor is yours.

Ms. Bilych. Thank you, Orest.

It is a great privilege and honor to speak at this venue today.

I am deeply grateful to Helsinki Commission, its leadership and our 
moderator, Orest Deychakiwsky, for hosting this very important roundtable.

Even as a 10-year-old child growing up in Soviet Ukraine, I always knew of 
the Helsinki Commission. Back then I could not possibly know what exactly 
it did, but I knew it was something bigger than I could possibly comprehend 
back then. I was right. It stands for democracy and human rights, rule of 
law and simply, morally the right thing.

Most of you know the great importance of the topic I'm going to speak with 
you about, but for those for whom it may seem a bit remote, let me remind 
you of the words of one of the greatest men, William Allen White, who said 
that ``Wherever a free man is in chains, we are threatened also. Whoever is 
fighting for liberty is defending America.''

Another great man and our great President Franklin Roosevelt once said that 
``Freedom means the supremacy of human rights everywhere. Our support goes 
to those who struggle to gain those rights and keep them. Our strength is 
in our unity of purpose. To that high concept there can be no end save 
victory.''

Ladies and gentlemen, I would like to thank you all for coming today to 
discuss our latest report.

Thank you to the esteemed coauthors for their outstanding work and 
dedication to human rights, international law, global peace and security.

I would like to extend my sincere and deepest gratitude to a very special 
woman who couldn't attend today, Professor Mary Holland, who supervised the 
project.

Thank you to David Glasgow, assistant director for the Public Interest Law 
Center, for his guidance and support.

And I would like to thank Matthew Mosner and Ethan Burger, who is here 
today, thank you, for their time and valuable comments to the early drafts.

Special thank you to all the editors, designers, volunteers, experts who 
gave us their feedback on the second edition.

And thank you to the wonderful team from VOLYA Institute for their superb 
work and dedication to the second edition to this report.

Thank you, our Razom partners for their support and understanding of the 
importance of the issues presented today.

A year ago, at a different venue in the United Nations, we gathered to 
discuss the legal dimensions of Russian actions in Ukraine, the occupation 
of Crimea and its illegal attempts to annex the Ukrainian territory.

To this day, the Russian Federation continues to occupy sovereign Ukrainian 
territory in Crimea and has violated international law by illegal seizing 
the Ukrainian peninsula.

We still have to sort out all the implications and grave consequences of 
the illegal actions of the Russian Federation in Ukraine and find a 
solution to restore Ukrainian sovereign territory for people of Ukraine and 
for us as the international community, individually and together, as well 
as for us the citizens of this great country.

What is very clear, however, is that the practice of human rights in 
occupied Crimea is dire and continues to deteriorate. Every day, Ukrainian 
citizens in occupied Crimea face unprecedented oppression and limitations 
of their rights. Serious and consistent violations of the civil, political, 
social, economic and cultural rights of Crimeans have been well-
documented by a variety of organizations, including the United Nations, 
Human Rights Watch, international media outlets, reports from the 
undercover journalists, activists in various local organizations, over the 
previous year.

The illegitimate, self-proclaimed Crimean and Russian authorities target 
those ethnic, religious and national groups that oppose the occupation. 
Indigenous Crimean Tatars are frequently suspected of this sort of broadly 
defined anti-Russian activity.

To help address the situation, to build on those findings and create a 
pragmatic guide for people both within Crimea and outside of the peninsula 
to understand the legal framework of the situation, and in an attempt to 
sort out the legal chaos that has been created by the illegal actions of 
the Russian Federation in Ukraine, an international team of lawyers based 
in New York University School of Law prepared this report. And it's 
available for you to pick up outside.



The purpose of the report is to assist individuals in Crimea, Ukraine, as 
well as around the world, working in academia, governments, international 
organizations, nongovernmental organizations, business and media, to 
understand the nature of the human rights violations in the occupied 
territory so they are better equipped to defend, to protect an 
internationally recognized expression of human rights.

The report or White Paper includes four parts and the manual. We analyzed 
the human rights situation in occupied Crimea, placing it within the 
context of applicable international standards, conventions and treaties; 
authorities and entities responsible for protecting and providing human 
rights; specific abuses of human rights by self-proclaimed Crimean and 
Russian authorities; legal precedence that apply to the occupied territory 
and its legal regime.

The authors examined the historical and legal context, defined the primary 
rights that are being violated, give recommendations on what steps people 
in Crimea can take, and outline actions for organizations.

We brought together several related threats to create the context for the 
current situation, covering the recent history of Crimea's transfer in 1954 
to the so called March 16, 2015 referendum to unify with the Russian 
Federation; the Russian Federation's use of force to occupy Crimea in 2014; 
post World War international agreements and treaties on state sovereignty 
and territorial integrity.

We outlined and examined 21 distinct human rights that are provided by the 
international and domestic laws. We analyzed each right individually with 
respect to international, Ukrainian and Russian law. The report focuses on 
civil, political rights, social, economic and cultural rights.

We discussed the suggested remedies for individuals whose human rights have 
been violated, suppressed, encroached or otherwise denied. The general and 
specific remedies include the use of international and Ukrainian and 
Russian Federation legal instruments.

We concluded the Russian Federation's illegal occupation and attempted 
annexation of Crimea has created a continuous stream of human rights 
violations, encroaching on or even prohibiting basic individual rights and 
freedoms.

The Russian Federation fails to comply with its obligations as an occupying 
power. And the Ukrainian government is not paying enough attention to the 
human rights abuses in Crimea Ukraine.

Remedies applying international law are not always available to victims 
with limited resources due to complex procedures, limited jurisdiction and 
resulting lengthy proceedings.

Our findings demonstrate the insufficiency of existing remedies for human 
rights violations and mechanisms of the entire international system of 
human rights protection with respect to Crimeans.

The following recommendations are for those entities that can help ensure 
human rights enforcement and protection in Crimea. We address the Ukrainian 
government, the self-proclaimed Crimean and Russian Federation's 
authorities, the international community and NGOs and civil society 
advocates on the ground.

Existing national and international remedies are ineffective against such 
massive human rights violations as are occurring in Crimea. Self-proclaimed 
Russian Federation's authorities deny responsibility and Ukrainian 
Government claim the lack of ability and resources to respond properly.

For this reason, the concerted efforts of governments and institutions 
worldwide are critical. Human rights organizations have reported 
extensively on human rights violations in Crimea and recommended ways to 
address those issues.

We concur with the recommendations and provide additional recommendations. 
In addition to the recommendations that we published on April 15, 2014 in 
our previous report, we built up and extend it to an additional 61 
recommendations.

We expect our recommendations to Ukraine, self-proclaimed Crimean and 
Russian authorities, international community and civil society and 
activists will prompt a solution, which will honor the Ukrainian people's 
human rights desire and support for unitary, sovereign country, Ukraine's 
territorial integrity and democracy.

Among the key recommendations, we recommend that Ukraine continue to work 
closely with the United Nations and other states and the international 
community to ensure Russia's troop withdrawal from Crimea and from the 
eastern Ukraine border.

We invented and proposed trifold logic to our recommendations. We ask the 
addressees of our recommendations to work on these recommendations and 
tasks according to their respective roles, responsibilities, goals and 
objectives.

The Ukrainian Government is advised to implement the recommended measures. 
The international community is encouraged to assist and monitor, and civil 
society to demand implementation of the measures and subsequently monitor 
the implementation.

The self-proclaimed Crimean and Russian authorities should comply with 
international law.

We suggest several key recommendations; among them is creation of special 
international tribunal, creation of special database that would help 
Crimeans to store the information about the human rights abuses or just 
sensitive information about their property, or just any information they 
find sensitive.

And coming back from Brussels and Strasbourg we found out that something 
similar like that exists regarding Chechnya. So the methods are there and 
it can be practically implemented.

Securement of free communication and access to true information. Securement 
of ongoing monitoring of human rights situation.

A crucial part of this report is a Human Rights Protection Guide which we 
call the manual, and we translated it into Ukrainian language, Crimean 
Tatar and Russian languages, which is designed to help residents of Crimea 
take steps to improve their current situation directly.

We conclude that people in Crimea are economically deprived and legally 
under-served, often knowing little about their rights and being unable to 
demand their application.

Therefore, the aim of the manual is to provide Crimeans of all ethnic and 
religious backgrounds with access to justice by explaining their 
fundamental rights. The manual lists a number of fundamental rights and 
their application.

And finally, the manual includes a directory of Ukrainian international and 
Crimean human rights organizations where they can report and seek advice or 
explanations.

Speaking about the recommendations, we believe that our recommendations are 
directed towards the state-building and having a true democracy and 
building a true democratic and prosperous Ukraine.

And to conclude, I would like to remind you a quote from John Prendergast, 
a great human rights activist, who said that ``The biggest roadblock to 
action on genocide and other human rights crimes is ignorance. Most people 
just don't know that such things are happening. And often, if they have a 
vague idea they are happening, there is a feeling that there is nothing 
that can be done to stop those crimes.''

Franklin Roosevelt also said that ``We must remember that any oppression, 
any injustice, any hatred is a wedge designed to attack our civilization.''

Russia's actions are striking at the heart of international law and order 
and the principles and values that helped to prevent war since World War 
Second. And if we allow ourselves to let it be, we run into much bigger 
risks.

I encourage you today to utilize your great expertise, and you'll hear many 
great experts today, this venue, power and any and all means to find a 
meaningful solution to stop the wedge of oppression, injustice, hatred 
towards the people of Ukraine in occupied Crimea.

Thank you.

Mr. Deychakiwsky. Thank you very much, Ivanna.

As you could see, that was an overview of quite a comprehensive report. And 
I think it's especially useful in that it's action-oriented in terms of 
both recommendations and a manual, a practical manual.

With that, let me turn to our next speaker, and that's Bohdan Yaremenko.

Bohdan, please.

Mr. Yaremenko. Thank you, Mr. Deychakiwsky. It's a great honor for me to be 
here and to address this outstanding congressional body.

I would like also to express my appreciation to everyone who made this 
presentation possible, to the VOLYA Institute, Ukrainian-American group 
Razom, as well as to Renaissance Foundation for supporting our trip to New 
York and Washington.

So ladies and gentlemen, our NGO, Maidan of Foreign Affairs, together with 
our partner web portal The Black Sea News, represented here by its editor, 
Mr. Andriy Klymenko, are not only covering the Russian military aggression 
in Ukraine since mid-February of 2014, but are the only Ukrainian 
institutions that summarized the picture of the aggression and published 
the comprehensive Crimea regain strategy, which is still the only one 
existing in Ukraine and it was done last year.

We are convinced the situation in Crimea and eastern Ukraine is directly 
connected and should be kept in the same frame for political analysis.

Honestly speaking, the picture will still be incomplete without analyzing 
the Russian intervention into Ukraine aside of what is happening in 
Transnistria, in Moldova, Abkhazia and Ossetia in Georgia. The time limits 
will not allow me to do it in a proper way.

Nevertheless, the issue of human rights in the conflict areas in Ukraine 
and in particular in the occupied Crimea should not and cannot be properly 
addressed without broader overview of the political, military, security, 
economic and social situation.

So we decided to share our responsibilities. With your permission, I will 
cover the general issues in order to allow my dear friend and colleague Mr. 
Andriy Klymenko to concentrate fully on the issues of the human rights.

So political preferences of the inhabitants of Crimea were not the reason 
for occupation and illegal annexation of the Crimean Peninsula. The local 
parliament elected in the year 2012 included only three deputies out of 
100, who represented the pro-Russian movements and organizations.

A few ethnic and interreligious conflicts have been artificially enforced 
by the Russian propaganda within a short period of time as the active phase 
of the annexation plan was being implemented during the winter of 2014. 
This fear was an additional factor to reinforce the overall concerns of the 
citizens.

The main propaganda messages, directed towards the citizens of Ukraine from 
the Russian side, covered the issues of the quality of life and quality of 
government. The media has created the illusion of greater efficiency of the 
Russian authorities compared to Ukrainian ones and of the readiness of the 
Russian state to ensure the better socioeconomic life conditions without 
any efforts made by the citizens of Ukraine.

So the invasion scenario is as follows. First, presence of the Russian 
citizens, including the military personnel from the intelligence agency, 
primarily of the principal intelligence directorate or the general staff of 
the ministry of defense of the Russian Federation. Together with the pro-
Russian activists among the local residents and citizens of Ukraine, they 
organized rallies, fights, massive disturbances, violent confrontations 
with patriotic, pro-Ukrainian citizens.

Second, a premeditated escalation used as an excuse for creation of the 
self-defense units that include both local residents and the Russian 
citizens infiltrated specifically for such purposes.

Three, in eastern Ukraine, these units seized administrative buildings and 
paralyzed the activity of the state bodies, which in turn stepped away from 
solving the problem and, in some cases, supported anti-state actions.

In Crimea, the self-defense units were a cover-up that was covering the 
covert operation of the special forces of the Russian army. They were the 
ones who seized the governmental agencies and blocked military bases of 
Ukrainian army.

Four, establishment of the pseudo government that took over the 
responsibility of the management over the occupied territories. The 
mentioned pseudo government imitated freedom of expression which was used 
as the justification of the expansion and explanation of the aggression.

The inability and unwillingness of legitimate authorities to take matters 
for quick and decisive suppression of those trends, an attempt to calm down 
the protesters or aggressors were regarded as weaknesses, encouraged the 
aggression and demoralized the Ukrainian supporters.

Corruption, common business interests of the local and central authorities' 
representatives with the relevant public and private bodies of the 
aggressor state were actively used as the mechanism to influence and 
compromise the political will for resistance and defense.

The annexation of Crimea has become the first case of the invasion of 
territory in Europe since the Second World War. The national situation 
calls into question the existence or the effectiveness of international law 
and the international security guarantees, thus threatening the existing 
world order.

The ``hot face'' of the armed conflict in eastern Ukraine is still ongoing. 
However, the so called Minsk agreements do not function as the ceasefire 
mechanism, at least as an effective mechanism, do not lead to the 
establishment of a sustainable peace and do not provide a solution on the 
problem of the territorial integrity restoration of Ukraine because it 
doesn't cover the Crimean issue.

The escalation phases coincide with the international negotiations on peace 
settlement. They are effectively used by Russia as a tool of pressure on 
negotiating parties.

The occupied areas of Donetsk and Luhansk regions suffered from the large-
scale destruction of the infrastructure and residential buildings resulting 
from the combat operations.

An industrial infrastructure was particularly destroyed, plundered and 
transported to Russia. In particular, defense enterprises were completely 
dismantled and transported to Russia.

The current condition of the industrial infrastructure does not allow to 
predict the possibility of the restoration of the pre-war regional economy 
structure and, consequently, of the social structure of the population.

About 2.5 million people, about the third of the overall number of 
inhabitants, mainly the most educated and active part of the society, 
became forced migrants and refugees. Prospects for resolving the situation 
in the east of Ukraine, the problem of the specific areas of Donetsk and 
Lugansk region are uncertain.

In terms of displaced people and political fugitives from Crimea, about 
40,000 people represented the most active and loyal citizens of Ukraine.

In general, the public mood in Crimea can be described as follows: At the 
beginning of the Crimean occupation, the residents were fully satisfied 
with Ukrainian liberalism, not satisfied with the quality of life, not 
satisfied with the quality of government.

As the result of occupation, as for now, the residents of Crimea have not 
received the improvement of the quality of government, it actually 
deteriorated, have not got better quality of life, it actually 
deteriorated, have lost Ukrainian legal liberalism.

A phase of adaptation to the law of the occupying country is Crimea is 
over, and the process of reclamation of the assets of the annexed territory 
is ongoing. This process can be described simply as colonization.

Replacement or dilution of the Crimean population is taking place. The 
import of Russians, including the military personnel and their families, 
officers of the intelligence agencies and their families, officials and 
their family members, members of the Russian organized crime groups from 
the Northern Caucasian regions of Russia is still ongoing.

Thus, according to official Russian statistics, the increase of the number 
of Russian immigrants in Sevastopol during the occupation was about 25,000 
people or about 7 percent of the population. In the rest of Crimea, this 
rate is somewhat lower, 10,000 people or 0.5 percent of population.

The occupying authorities are developing Crimea mainly as a military base. 
The number of troops is about 50,000 people, not including the members of 
the security agencies or police.

The development process and increase of the military grouping has not yet 
been completed. However, according to the objectives defined by the 
minister of defense of Russia, the number of Russian troops in Crimea can 
be increased to up to 100,000, 120,000 people.

The invaders turned the Crimea to a rehabilitation center for the militants 
fighting in the east of Ukraine. Training camps for training all the 
mercenaries later directed to fight against the armed forces of Ukraine in 
the Donetsk and Luhansk regions have been established in Crimea.

Crimea has become a basic center of support of the Russian military 
grouping in Syria as well.

Forming a powerful military base in Crimea, Russia threatens both the 
southern regions of Ukraine and the existing Black Sea naval communications 
as well as the European countries--NATO member states, Bulgaria, Romania 
and Turkey.

The road infrastructure in the occupied territories has been fully and 
largely destroyed because of the massive movement of a large number of 
heavy military vehicles, armored vehicles, battle tanks, so on.

Intensive military building in Crimea led to accelerated destruction of 
roads. All programs of road construction of Russia in Crimea turned to be a 
usual patching work of a very poor quality.

The Crimean economic assets are being stolen or lose their capacity. 
Railways, ports are not actually used. Without proper irrigation, the 
agricultural soils lose their fertility, while their salinity is 
increasing.

Natural resources of Crimea are being destroyed. The unscrupulous 
extraction of the fresh underground water has led to the rise of the saline 
groundwater level in some areas, like Kerch Peninsula, leading to increase 
of the soil salinity. Furthermore, it complicates the water supply to the 
population.

Given the intense military building, the occupants increase the volume of 
the quarry mines development and open up the new quarries for gravel 
extraction, which can result in destruction of the microclimate in the 
valleys of the Bakchisarai area.

The situation with the quality of life in Crimea has developed in such a 
way that under systematic reduction of employment, according to our 
calculations, since the annexation, about 200,000 jobs, primarily in 
tourism, restaurant and hotel business services, small business and 
transport, have been lost. The available vacancies are not filled.

Today there are 2,000 vacancies of municipal officials in Crimea, as well 
as a large number of jobs in health care. Generally, it is difficult to 
fill the vacancies of ordinary employers in the business structures.

What will happen next? Developments in eastern Ukraine are hard to predict 
because the ``hot face'' of the conflict is still ongoing. Russia as the 
state aggressor has sufficient resources to continue military actions. Its 
probable political purposes in Ukraine and in Europe have not been 
achieved.

The means of influence on Russia, such as international sanctions, are just 
beginning to influence the Russian economy. And the political will of the 
leadership of the Russian Federation to continue their aggression, but 
their duration in time is uncertain.

In Crimea, the main trends affecting the current developments are as 
follows. First, the main priority is to develop the territory as the 
military base.

Consequences: Posing threat to security of the Black Sea region, the EU 
member states and NATO, Bulgaria, Romania and Turkey. Change of the 
military balance namely within the framework of the agreement on 
conventional armed forces in Europe, although Russia is not following for 
some time this international agreement.

The possibility within the framework or the arrangements or the agreements 
in the field of the strategic nuclear weapons control. A persistent 
military threat to the entire southern coast of Ukraine with a purpose to 
implement the plan of setting up the land corridor between the Russian 
Federation, Crimea and Transnistria. Militarization of the region. 
Expansion of the Russian military presence in Syria and the consequent 
armed confrontation and civil war in that country.

Further enforcement of the policy of forced loyalty towards the inhabitants 
of Crimea, which will lead to further violation of human rights, the 
pressure on the dissidents or disloyal groups or population. Andriy 
Klymenko will cover this issue later on.

Strengthening control over the media. Implementation of strategic 
infrastructure building projects, like the bridge across the Kerch Strait. 
The need to increase supply of building materials and equipment primarily 
of metal, timber, construction mixes, so on, which will lead to increased 
pressure on the road infrastructure and increased use of local natural 
resources, which in turn results in poor climatic balance in the number of 
sub-regions of Crimea.

Second, lack of economic development strategy, lack of the managerial human 
resources.

Consequences: A trend towards reducing the number of small and medium 
enterprises. The set priority is to develop and support the larger 
companies mainly in the defense sector. Unemployment growth. Reduction of 
the tax capacity in the region. Increase of the dependence on direct 
funding from the federal budget of Russia.

Redirection of the budget financial flows in Russia, financing deficits in 
other regions of the Russian Federation. Concealed contradictions and 
competition for obtaining funding between different regions of the Russian 
Federation.

Decrease of the standard of living. Decrease of the consumer purchasing 
power of the population. Increase on prices, fewer choices for consumers, a 
lowering of the quality of food, increase of the social certification and 
increasing differences in living standards among the citizens funded by the 
state, federal, regional budgets and self-employed people and the employers 
of the commercial structures. Continuation of policy of excessive use of 
infrastructure and natural resources.

Three, continuation of the trends toward resettlements of the citizens with 
simultaneous degradation of democratic institutions, human rights and 
freedoms, increase of corruption criminalization of a daily life.

At the same time, Ukraine is going to greatly expand the policy of 
peninsula blockades trying to create enforcement mechanisms to engage 
Russia in dialogue on the annexation.

Furthermore, Ukraine will be working on the creation of mechanisms for 
establishing the communication with the population of Crimea, information-
disseminating channels, definition of the legal status. Creation of the 
opportunities to exercise the rights and protect the interests of the 
citizens in the territory of Ukraine.

Definition of the status of the self-government bodies of the Crimean Tatar 
people. And Crimeans on the whole support all the activities.

Thank you very much for your attention.

Mr. Deychakiwsky. Thank you very much, Mr. Yaremenko. That also was a very 
comprehensive report. You've put the human rights situation in a broader 
context and discussed many of the consequences of Russia's illegal 
occupation.

And with that, we'll turn to Andriy Klymenko. His statement will be read by 
Svitlana Krasynska.

Please.

Ms. Krasynska. Ladies and gentlemen, statement by Mr. Andriy Klymenko, 
editor in chief, The Black Sea News.

Dear ladies and gentlemen, please allow me to start with a statement of the 
absence of any significant human rights violations in Crimea prior to the 
annexation noted by the specialized international bodies like Council of 
Europe or U.S. State Department.

As well, there were no reports or any statements on the issue done by the 
Russian Federation.

The existing problems in the field of the human rights were merely related 
to the underdeveloped, transitional, democratic or law enforcement system 
in Ukraine.

Some noted occasional situations of the conflicts on the grounds of 
political affiliation, ethnic or religious routes ironically were always 
created by the pro-Russian activists, Russian neo-Nazis, et cetera.

Today, the citizens of Ukraine residing in the temporarily occupied 
territory of the Autonomous Republic of Crimea are actually deprived of a 
number of fundamental rights and technology possibility of their 
protection, particularly by drawing attention of international human rights 
organizations to their problems.

Forcing citizens of Ukraine to join Russian citizenship is one of the tools 
for invasion of the occupied territory by Russia. The owners of the 
Ukrainian passports are deprived of the opportunity of education, medical 
services, immovable property registration, obtaining utilities, employment, 
et cetera.

For some categories of the citizens of Ukraine, the renunciation of 
Ukrainian citizenship was delivered as an ultimatum--employees and 
personnel of certain commercial structures, such as Ukrtelecom, et cetera.

The aggressor is implementing a large-scale program of forcing the 
residents of Crimea to loyalty. Potentially disloyal persons are considered 
to be, first, journalists, civil activists, members of NCA, national 
competent authority, whose organizations and the media were created prior 
to the occupation.

Second, Crimean Tatar people, in general, members of the autonomous bodies 
of the Crimean Tatar people, Kurultai, Medzhlis, 230 regional Medzhlis 
offices, clerical leaders of the Muslims, mainly of Crimean Tatars.

And third, ethnic Ukrainians, or persons of different ethnic origin with 
Ukrainian political identity, including religious leaders and members of 
religious communities of the Ukrainian Orthodox church of Kyiv 
Patriarchate, Catholics, Greek Catholics, both Ukrainians and immigrants 
from Poland, Belarus and the Baltic states.

The Crimean Tatars are put to systematic pressures as the most cohesive 
community that openly expressed its opposition to the occupation of Crimea 
by the Russian Federation. The number of secret service employees per 
capita in Crimea is three times higher than the similar rate for the rest 
of Russia.

Methods of their work are intimidation, total control of telephone calls, 
Internet communication and brainwashing through the media, accusations, 
separation of certain groups of citizens on ethnic or religious grounds.

Activists or citizens disloyal to Russia are called in for many-hours-long 
interrogations, ``preventative interrogations,'' searches are carried out 
in their homes, raids are carried out in the areas of compact settlement of 
the Crimean Tatars.

The troops block certain localities or settlements, the authorities 
organize deportation from Crimea, exclusions, criminal prosecution based on 
fabricated evidence and false accusations, kidnapping, murders.

The state authorities of Russia have developed a whole arsenal of 
intimidation methods in the republic of Ichkeria and other regions of the 
North Caucasus.

Despite the declared trilingualism in Crimea--Russia, Ukrainian, Crimean 
Tatar--invaders not only eradicate the Ukrainian language, but in general 
any mention of Ukraine. There are reported cases of public burning of 
books, schoolbooks, plates and inscriptions in the Ukrainian language in 
front of students. The Ukrainian schools and classes are being closed down.

Russia makes efforts to establish information ghettos on the Crimean 
Peninsula in which citizens of Ukraine will be deprived of the opportunity 
to receive information from Ukraine. These efforts include a complete 
cessation of Ukrainian TV and radio channel broadcasting, disconnection of 
the Ukrainian mobile operators and Internet service providers.

Today, all independent media maintaining pro-Ukrainian position ceased 
their existence and work in Crimea. They either disbanded or moved from 
Crimea to other regions of Ukraine.

This particularly has the impact on the online media since the Ukrainian 
legislation did not require their registration, although they are 
equivalent to the print media under the laws of the Russian Federation.

As of today, the only propaganda media spread in Crimea has an openly pro-
Russian orientation.

On May 9, 2014 the Russian Federation introduced the amendment to the 
criminal code which provides for a penalty of imprisonment from three to 
five years for journalists and ordinary citizens for disagreeing with the 
fact that Crimea belongs to Russia or for calls for its return to Ukraine. 
Public calls to commit actions aimed at violating the territorial integrity 
of the Russian Federation it's called. Criminal procedures under the 
relevant article are initiated both against the citizens of Ukraine and the 
Ukrainian media that operates in the mainland Ukraine and are likely to be 
used for the persecution at the international level.

The Russian authorities have eliminated the possibility of monitoring the 
compliance with human rights. Independent international human rights 
organizations in the occupied territories are not allowed to implement such 
monitoring. Instead, the Russian authorities are actively working to 
organize visits of international delegations and media to Crimea for 
propaganda purposes.

Actions of the occupying power related to implementation of property rights 
are marred by massive violations of rules and practices accepted in the 
civilized world. There is a massive expropriation of all the state property 
of Ukraine in the territory of Crimea, which is called the 
``nationalization'' by the Russian propaganda.

More than 400 companies have been expropriated and the list is constantly 
growing. This list includes over 200 resorts, all the ports, including the 
airport, water and energy supply facilities, railways, wineries, grain 
elevators and agricultural enterprises. The objects that belong to Ukraine 
or to the trade unions and other public organizations as well as to the 
higher education institutions and the academy of science, et cetera, have 
also been expropriated.

As for the private enterprises, their formal expropriation was not carried 
out. However, there are schemes of raider takeovers and changes in the 
company management board that have been implemented. The ``Crimean self-
defense'' units are used as a component of the forcible takeover in the 
course of such actions. An information component includes distribution of 
false information through the media on the bankruptcy or financial problems 
of such companies, on the large debts that they have, and such 
justifications call for their ``nationalization.'' Such schemes are 
currently applied selectively to those owners who support the idea of 
territorial integrity of Ukraine and oppose the occupation.

Because of the time limits, I will gladly provide more comments or examples 
during our Q&A session.

Thank you.

Mr. Deychakiwsky. Thank you, very much, Mr. Klymenko, for your description 
of the truly deplorable human rights situation in Crimea.

And now we'll turn to our last speaker, Yuriy Yatsenko, who has a very 
compelling personal story, having been a prisoner of the FSB for a year.

Go ahead.

Mr. Yatsenko. Hello. My name is Yuriy Yatsenko. I am Ukrainian citizen who 
was illegally arrested and detained by the Russian Federation for over a 
year for political reasons. Others who have suffered and continue to suffer 
the same fate are Nadia Savchenko, Oleh Sentsov and others of whom you 
probably have never heard.

I was arrested in May 2014 in Kursk region of the Russian Federation, to 
where I traveled together with my friend on a business trip. I was detained 
by the police during a routine document check that the Russian police often 
practice.

At the police department, an agent of FSB, Russian Federal Security 
Service, showed to me a photograph of myself taken during Euromaidan 
protests, which, as I suspect, he had found on social media. The agent 
demanded that me and my friend provide false testimony about being 
recruited by the head of the SBU security service of Ukraine to commit acts 
of terrorism in Russia. At the time, I was just an ordinary student from 
western Ukraine and I simply couldn't believe that such absurd accusations 
were being made against me.

After we both refused to incriminate ourselves, they began beating us at 
regular intervals. We were also offered an option of going on Russian TV 
channels and giving a predetermined speech about being sent to Russia from 
Ukraine to commit subversive acts, but instead turning to the FSB for 
protection to save us from the Ukrainian authorities and their prosecution.

Once again, we refused to give false testimony, so the harassment 
continued, turning into both physical and psychological violence. At first, 
the abuse and the beatings were constant. I remember one particularly 
brutal instance. Some special forces soldiers wearing masks put a bag over 
my head, took me into the woods and tortured me. They hanged me by 
handcuffs for hours, beat me in the head, groin and other parts of the 
body, as well as strangled me. They also simulated an execution, firing a 
gun next to my head.

The next morning, which was two weeks since my arrest, I used a shaving 
blade to cut my abdomen and the veins on my arms to stop this abuse. Only 
then I was taken to the hospital from where I finally managed to inform my 
family about my whereabouts.

In the hospital, as a way of further punishing me for the protest, my 
wounds were sewn up without anesthesia. They didn't repair my veins, but 
only the skin on my arms, so there was swelling and pain, so I couldn't use 
my left arm for three months.

Despite the court decision about our deportation, both my friend and I were 
illegally kept at a special detention center for illegal immigrants, for 
three months. During this period, the beatings and the torture was 
constant. Only three months later my friend was released and taken to the 
Ukrainian border, while I was suddenly charged with the crime of possessing 
explosives.

Despite the absurdity of these accusations and absence of any evidence, the 
court found me guilty. At first, I was sentenced to two years of 
imprisonment, but shortly afterwards an appeal court reduced the sentence 
to nine months. Since by that time I had already spent a year in detention, 
I was released.

Through this year, in addition to all other abuse I have mentioned, I had 
been regularly placed into the punishment cells and solitary confinement. I 
spent three months with a mentally ill person in one cell. I was told I had 
AIDS to scare me.

The fact I am free now is a testament to the efforts of the publicity 
campaigns, international pressure and coordinated work of human rights 
advocates and lawyers.

As of today, at least 13 Ukrainians are detained illegally somewhere in the 
Russian Federation, and at least eight such prisoners are being held in 
occupied Crimea, both Ukrainians and Crimean Tatars. The criminal cases 
against them are fabricated.

Most of them have been brutally tortured. Some of them have been deprived 
for over a year of their right to meet with an attorney or Ukrainian 
consul. These are people of various ages, professional backgrounds and 
political views, but they share one thing: Their lives have become an 
instrument of the Russian state-sponsored propaganda that has created the 
image of Ukraine as a mortal enemy of Russia.

The Kremlin officials constantly look for the means and the reasons to 
justify their hybrid war against Ukraine. That is why innocent Ukrainian 
citizens are proclaimed to be terrorists, spies and fascists.

It is a miracle that I managed to escape imprisonment and can tell you my 
story personally. I prayed for this all the time in prison.

Mr. Pechenyak. OK. And he will say a few more words and I will translate 
for him, interpret.

Mr. Yatsenko. [Through interpreter.] So I just want to impress upon you 
that while we're sitting here talking about all of this, there's 13 people, 
which I've mentioned, sitting in some decrepit Russian cell, waiting for 
their continuing punishment and not able to see anybody.

Ukraine, just to be part of the democratic freedom-cratic world, has paid 
the price of thousands of lives and continues to pay that price. I think we 
deserve, that Ukraine deserves the democratic world extends the hand of 
help.

Our campaign, that has been in the Euromaidan SOS and Let My People Go 
campaign, which he has became an advocate for this campaign, they developed 
a set of principles or the most effective things that could be done to 
address and to help these people that are still imprisoned. This includes 
organizing open hearings in the European Parliament and other parliaments 
of the free and Western democracies. It also includes providing information 
to the media and publicizing these cases of the people and their plight and 
to inform the world about sufferings.

And also, it includes identifying and including sanctions that include the 
people who participated in the torture and the prosecution into the 
sanctions, meaning adding, for example, adding these people, their names, 
specific names of the people who were complicit in these acts to the, for 
example, the Magnitsky list and other lists that may exist.

Now, from my experience, I think it's extremely important because if you 
don't punish these evil acts they will spread, they will continue to spread 
and there will be more of them.

Thank you for your attention. [Applause.]

Mr. Deychakiwsky. Thank you very much, Yuriy. We're glad you survived your 
horrible ordeal and that you're here to bear witness and to also speak out 
on behalf of others who have been unjustly imprisoned and suffering human 
rights abuses.

I do want to mention that both in the Senate and the House--actually these 
were led by our commissioners, Senator Ben Cardin and Senator Roger Wicker 
in the Senate--resolutions did pass earlier this year calling for the 
release of Nadia Savchenko and others. And also, a House resolution passed 
several months ago that included language along the lines of what you 
spoke.

That's a first step. It's not calling for the addition of names to the 
Magnitsky list, but it's a step. And actually this amendment was included 
by our Chairman, Chris Smith, and I have a copy of the resolution here. The 
amendment ``calls upon the United States to impose targeted sanctions 
against persons responsible for the kidnapping, arrest and imprisonment of 
Nadia Savchenko and other illegally detained persons.''

So at least there's something on the record in the U.S. Congress on that. 
But it is a process.

What I'm going to do before opening the floor to questions and answers is 
ask Yaroslav Brisiuck, who's the what we call DCM, Deputy Chief of Mission, 
of Ukraine's embassy to the U.S. and, I believe for the next few minutes at 
least, the Charge d'Affaires because Ambassador Chaly is still on his way 
back from Kyiv where he had gone to accompany Vice President Biden.

So Yaroslav, if you want to come up to the podium and make a few comments, 
please?

Mr. Brisiuck. I would like to thank the Helsinki Commission for holding 
today's briefing, and the panelists for once again bringing the important 
message of Crimea and the ongoing Russia aggression, to Washington.

There's nothing more important to Ukraine, to the government, to civil 
society, the NGOs, to all citizens of Ukraine than stopping Russian 
aggression, the continued occupation of Crimea and egregious human rights 
abuses.

We must not allow this topic to fall off the radar and be out-shadowed by 
other crises of today, such as Iran, Syria or Ebola or anything else, 
because the gravity of what's happening in Ukraine has really global 
magnitude.

As Mr. Yaremenko mentioned, this is the first time since World War II when 
an aggressor tries to redraw Europe's borders by force. So things like that 
must not be happening today. And things like what happened to Mr. Yatsenko 
and are happening to others must not be happening in today's world.

And we're grateful for the tremendous support and bipartisan support here 
in Washington, in Congress, that the Ukrainian Freedom Support Act passed 
last year, the Crimea-specific resolutions both in the Senate and in the 
House. There's executive orders imposing sanctions, Crimea-related 
sanctions, as well as numerous statements, including by Vice President 
Biden at the Rada just a couple of days ago.

Unfortunately, the problem is that these sanctions have not been strong 
enough to make Russia, make Putin change his course. And as the war in 
Ukraine and Crimea is less, appears less on the front pages of newspapers, 
there's danger that those sanctions might be rolled back.

And our strong position is that these sanctions must remain in force, they 
must be ratcheted up to actually force the Kremlin to end its aggression 
and illegal occupation of Crimea.

And what Congress could do in sending yet another powerful signal is to 
pass a law which would establish by law that it is the policy of the United 
States that it will never recognize the illegal annexation of Crimea.

And I would like to ask the panelists to elaborate what Mr. Yatsenko 
mentioned when he talked about what the West should do to help end the 
occupation of Crimea, if you could please share your thoughts on this.

And thank you very much again.

Ms. Bilych. I think I can answer. Well, again, we have 61 recommendations. 
Some of us were born and raised in Ukraine and were fortunate enough to get 
an excellent education in the West in the best educational institutions in 
the United States. We do understand how Ukraine works and operates and 
maybe there is a reason why we live here and work on those issues.

Those recommendations are very practical and we believe they are aimed at 
building a truly stable Ukraine, democratic and prosperous Ukraine.

For example, Ukrainian judicial system is young and often inefficient. 
Ukraine is a young democracy. It's not able to handle all those human 
rights violations. So there is a huge need in establishing an independent 
international tribunal in adjudicating the abuses, human rights abuses that 
are happening in Crimea and that led to what had happened in Crimea.

The next step probably would be to adjudicate those human rights violations 
that happened at Maidan and those that are happening in the eastern part of 
Ukraine due to Russian occupation.

That is why we advocate for Ukrainian laws being used in that tribunal and 
international judges and experts being the judges. We informally talked 
with different judges and they don't feel comfortable with adjudicating 
their peers, with people they went to school or their kids going to school. 
It's a young democracy, it works, and they would like to learn. And I 
think, and we think it would be an appropriate solution.

And also, that could tap into other issues and have them to deal with other 
concerns such as corruption and other things that they are dealing with.

To build a database, to start a database, for example, it would send a very 
strong message. It may seem like it's nothing, but it is something for a 
Ukrainian citizen who lives in Crimea, if she can send a copy of my deed to 
the property virtually to the database and use the Internet and store it 
and know that when everything is sorted out she can still use and exercise 
her right--it is a powerful message.

And we are watching. We are watching what you are doing. Maybe we're not 
ready to deal with everything and we're trying to develop the methods. But 
we are watching and we are collecting the data. We are protecting our 
citizens.

And that's where the other states, as the United States come in, they can 
provide their expertise. They have to, of course, work and be wholly 
engaged, but the expertise should be there.

And of course, to restore the communication. I mean, it's incomprehensible 
that Ukrainian citizens cannot communicate, they have to use super-
expensive means to communicate with their family in the mainland, that they 
cannot exercise their right to true information.

There was an experiment held on them by a foreign country. They're being 
brainwashed by the Russian Federation's propaganda. This is just 
incomprehensible. And that's why there will be consequences when it 
continues. And it's going to cost us more and more in the future to deal 
with those issues.

And other things that can be done are, for example, Ukraine is a signatory 
to all World Health Organization treaties. The people who are drug addicts, 
they could gracefully release their dependency on drugs by using methadone 
and other means. Unfortunately, after Russian occupation happened, some of 
them committed suicide, so many of them died, we do not know what happened 
to all 806 individuals. Those are so underprivileged and under-served 
people, they just disappeared, vanished. Some of them left for Russian 
Federation where they have to go cold turkey, and some of them ran to 
Ukraine, where they can get support.

Russia has to, as occupying power, has to renew those, has to implement 
Ukrainian laws and has to restore those programs. Little things like that, 
they seem little, but they are very important and they influence each and 
every individual.

And just we have to remember, returning Ukrainian sovereignty, we have to 
return Ukrainian citizens back. So it has to come in totality of how--we 
have to look in totality of those factors.

Thank you.

Mr. Deychakiwsky. OK, thanks.

Mr. Klymenko. [Through interpreter.] We have to come from the fact that 
none of the words, none of the monetary, none of the appealing to the 
Russian--from the international community are really working in the Russian 
Federation.

Secondly, no independent monitoring of human rights abuses on the territory 
of Crimea exists or can exist under today's circumstances. That's why we 
only have one recourse, which is third, is the increase of the sanctions in 
order to create, in order to impose as big a price as possible for these 
actions.

So at the same time, these sanctions also can work as an ultimatum for the 
release of political prisoners and for desisting the persecution of other 
citizens.



I would like to give an example, that the energy blockade that was 
instituted by the civil society in Ukraine in 20 days alone brought damage 
to the Russian economy consisting of 10 billion rubles, which roughly is 
one-seventh of a billion dollars.

And last, in general, during the time of the occupation, the money that 
went into the budget of Crimea from the Russian Federation increased 
between 70 to 80 percent. In other words, sanctions work.

Mr. Deychakiwsky. Anybody else?

Mr. Yatsenko. So our chairman today mentioned about the possibility that 
the law may be adopted with regard to sanctioning people who are involved 
in these acts of torture. I would like to request that the people who were 
involved in my case and other cases of other people that are still 
imprisoned be added to the list, that sanctions apply to the Magnitsky list 
or other lists. So that's my appeal to be included in that law.

And I request, I appeal that that law is adopted.

Mr. Deychakiwsky. OK, thanks. We'll do our best.

Bohdan Yaremenko wanted to add something very quickly before we move on.

Mr. Yaremenko. I'll try to be as brief as possible. I just would like to 
remind what I just said in my presentation. The Crimean Peninsula, 
occupation of Crimea is not the primary issue when we're talking about the 
ways of resolving the situation. We must remember that there are other 
cases in the region, Donbas, Transnistria, Abkhazia, Ossetia. And Russia is 
standing behind all of them.

So it is not the case of Crimea alone. It is the case of the international 
community finding the way to address the country, the U.N. members, the 
U.N. security members, the countries which own the nuclear arsenals and to 
make it cooperating with the rest of the world and to make it to respect 
international law, to respect the international order.

On the level of practical diplomacy, besides the things mentioned by 
Andriy, I would like to add there are existing sanctions. You know that 
right now we have two packages of sanctions against Russian Federation. One 
package was introduced after the annexation of occupation of Crimea, 
another because of the war in the eastern Ukraine.

So I have no doubts that they should be combined and united within one 
package. Otherwise, the Russian Federation will continue to think that as 
long as they would create some ceasefire situation in eastern Ukraine, it 
would mean that most of the sanctions would be lifted.

And the package of the sanctions that was introduced because of the 
Ukrainian occupation is nothing else but symbolic. So it's the prohibition 
for entry to European Union and United States for like 300 Crimeans, Putin 
can live with this. And the restrictions on the operation in the Western 
markets for 20, 30 Crimean-based companies, so it's nothing to stop Russia. 
So those two packages should be united.

Because the most important part of the sanctions are those that are 
directed on the sectoral, on the different sectors of Russian economy, so 
the rest of the world should send.

Again, I would like to clarify that, of course, the regaining of Crimea is 
the competence and responsibility and duty of Ukrainian nation. But to 
assist us, the rest of the world could send the message to the Russian 
Federation that the sanctions will stay in place as long as you are keeping 
your troops in eastern Ukraine and in Crimea and quite possibly in 
Transnistria, in Ossetia and in Abkhazia.

There is no way to resolve this situation or those situations one by one. 
We should find the common approach to all of them. Thank you.

Mr. Deychakiwsky. OK, thank you.

We're going to open up the floor to questions. And what I'd ask you to do, 
you may want to line up, speak at the podium, and please use the mic there 
because this is being transcribed. And also, keep in mind, please, if you 
could identify yourself.

And while you're lining up, I'm going to give the opportunity to my 
colleague Jonas Wechsler to ask the first question--or the second question, 
I should say.

Mr. Wechsler. Thank you, Orest.

My question relates to the issue of forced citizenship upon the Crimea 
residents. It's broad-based and I'm sure that a number of you could speak 
to it, including DCM Brisiuck.

But to get to it, I'd like to know, Crimean residents who've been refused 
citizenship, how are they currently being treated? I know you spoke to some 
of the property issues, but in terms of their freedom to come and go and 
otherwise conduct economic and social activities.

And then furthermore, it has been noted that a number of Crimean residents 
at the time were at least initially supportive of the Russian activities 
with thoughts that they'd see some economic and other improvement.

As we've heard up here, the situation has only deteriorated all around in 
Crimea. And I'm sure now a number of these folks are experiencing buyer's 
regret. And I'm interested to know, in terms of Ukraine's own ability to 
reach out to these residents, does Ukraine allow these Crimeans to reclaim 
their citizenship whether or not they voluntarily accepted Russian 
passports, or accept them should they later choose to move to the Crimean 
mainland?

Mr. Klymenko. [Through interpreter.] About citizenship, on March 18, 2014 
Putin declared us all citizens of Russia. We didn't ask him for it. 
Ukraine's minister of justice, declared that it does not fit any legal 
frameworks. Ukraine told its citizens in Crimea that it considers them 
citizens of Ukraine.

Along with that, living in Crimea without Russian passport is impossible. 
You will not be given a job, you will not be admitted to a hospital, your 
children will not be able to go to school and you will not be able to have 
your car registered or get any kinds of documents.

The quantity of people who could register as residents, but not citizens, 
who did not want to take Russian passports were limited to 5,000 people 
from the beginning.

When you go to the government, when you get a government job, which is 
police and prosecutors office and other government institutions, it is 
required to give up your Ukrainian citizenship and take the Russian 
passport.

Unofficially, but yet rather assertively, the workers of the ministry of 
education are also requested to do the same.

Majority of the residents of Crimea retained their Ukrainian passports. The 
decision of the civilized world to not give visas to those Crimean 
residents with Russian passports had a very strong impact. In Crimea, a 
very widespread expression for those who hold Russian passports, to call it 
Auschwitz which was the term in Nazi Germany, used in Nazi Germany.

As to what to do to help, according to international law and the Ukrainian 
law on occupied territories, all responsibility for all spheres of life of 
citizens who reside in Crimea reside with the country occupant.

Ukraine can help its citizens only on the mainland Ukraine, not on the 
occupied territory. This help consists of the following, although it also 
has its own problem. First of all, the high school graduates can be 
accepted in universities in Ukraine. And also, citizens who want to receive 
birth certificates for their newly born children can also do that on the 
mainland Ukraine.

Those who left Crimea for the mainland Ukraine and those who cannot find a 
job, they, for a short period of six months, can receive unemployment 
benefits.

We cannot talk about any kind of help out of Ukraine on the territory of 
the occupied Crimea, it's just completely impossible. Even for possessing a 
little Ukrainian flag, you can be detained by the police.

And lastly, we, all the declared, new citizens of Russia now are prone to 
having criminal charges against us on the territory of Crimea.

On March 6th of this year, I presented a report, together with the Atlantic 
Council, on the situation on human rights in Crimea. On March 10, FSB 
opened a criminal case against me for an attempt to disturb the territorial 
integrity of Russia. They opened the case precisely for the reason that 
they consider me a citizen of Russia.

Related to this case, about 10 people were questioned. There were multiple 
searches in their homes and offices. And this case is still open and 
continues.

In other words, the problem of citizenship is very wide and very complex 
and it calls for professionals, the legal professionals to take charge of 
addressing it.

So the main help that we can provide to the Crimeans, except the Crimean 
Tatars, is for those who want and can move to the mainland Ukraine, so we 
provide everything they need for that to happen in place.

The children who were educated in Ukraine will now be serving in the 
Russian military, and so on.

Mr. Deychakiwsky. All right, thank you.

Now we'll take questions from the floor. If you could please come up to the 
podium on your right, my left. And yes, identify yourself.

Questioner. I'm Adrian Karmazyn with the U.S.-Ukraine Foundation. And I was 
wondering if you could talk a little bit more about the life of refugees 
from Crimea, various communities of Crimeans throughout Ukraine. There's 
the Crimean Tatar community, there are other communities. Where do they 
live? Where do they work? How do they participate in Ukrainian life?

Ms. Bilych. Actually, I would like to address this. I know we have better-
equipped people from Ukraine to do this. But this year I went to Ukraine 
twice and I've met many Crimeans and I've made friends with many Crimeans.

And one of those Crimeans, many of them, they live a very fulfilling 
political life and civil society life. And some of them they're just 
inspiring. For example, I met this young lady. She continues her studies. 
She had to escape the persecution. And she's been very instrumental in even 
providing us with some materials. And she's just amazing and she's an 
inspiration. She was a quiet spirit and that's what I saw in many other 
Crimeans, amazing, inspiring people and true heroes.

And when we went to Ukraine, we had this amazing opportunity to meet more 
Crimeans at the Maidan of Foreign Affairs, and it was just an amazing 
meeting. They were so inspiring and so giving us more strength and 
inspiration to go and help to explain what's going on there and to provide 
them the forum to do that.

And for many of them, of course, it's very hard. But those people who I in 
particular met, they just--they were a true inspiration.

And that's how we met Mr. Klymenko and that's how we developed a friendship 
and a true working experience. Thank you.

Mr. Deychakiwsky. Anyone else? OK.

Mr. Klymenko. [Through interpreter.] First of all, I want to emphasize that 
we do not call ourselves refugees. The law calls us temporarily displaced 
persons. And although this may be incorrect, but we call ourselves 
political immigrants, Crimean political immigrants. And this is exactly so.

Those people who left Crimea were those who understood that they could not 
continue their either professional or civic activities or simply those 
people, Ukrainian patriots, who simply could not pretend, you know, hold 
themselves back and pretend like nothing is going on.

I will give you an example of one of our colleagues and a person from Yalta 
where I'm from and who is now our colleague at the Maidan of Foreign 
Affairs.

So imagine a dean of law schools comes from a brief vacation and comes back 
to the building, seeing portraits of Putin everywhere. He was an Afghan 
veteran, he's 50 years old. He's a very strong character.

Without hesitation, he gives an order, in 10 minutes I don't want to see 
this, I want to see pictures of flowers from the botanical garden.

As soon as I found out about that, I called him immediately and told him 
you have to leave Crimea now because very shortly you will be found in the 
basement of FSB. There are about 40,000 to 50,000 such individuals in 
different parts of Ukraine.

And perhaps you know that we also have about a million refugees from the 
Donbas. Among them, there are also Ukrainian patriots. But the majority of 
people were simply leaving to avoid the bombing. And those people line up 
at the government agency offices to receive benefits and wait and demand 
help.

Those Ukrainian patriots from Crimea and Donbas, as a rule, understand that 
Ukraine is undergoing very hard times right now. And they are trying not to 
only help themselves, but also to do something to improve the situation in 
Ukraine.

And at the same time, and this is my concluding thought, that we all of a 
sudden just have become poor. I've lost my home and I've lost all my 
property in Crimea. And at my age I am now a homeless person. And you know, 
the only way for me to deal with this is just to try to forget it.

There is an organization that's been recently created of civic 
organizations supporting Crimea and resettled. There have been two 
conferences and it unites over 2,500 organizations from different parts of 
Ukraine.

Mr. Deychakiwsky. Thank you, and for also describing yet another example of 
the human impact of Russia's aggression.

I think we have time for one or two more questions if anybody wants to 
please come up to the podium again and identify yourself.

Questioner. Alex Yanevskyy, Voice of America, Ukrainian Service. I'd like 
to go back to violation of the human rights in occupied Crimea.

You've been saying that Russia does not comply with international law, and 
you said, all of you, pretty much said that Russian Federation has to do 
so. But recently, Russia's Duma adopted to law where it says that the 
domestic law overrules an international law. What are you going to do about 
that? Thank you.

Mr. Yaremenko. Well, basically, I already answered this question. So it's 
not about the Crimean law and it's not about Donbas law and it's not about 
Transnistria law. It's about the country which is purposely violating 
international law and our ability as an international community to find an 
answer on this dilemma.

There is no answer so far. So it looks like that for the Russian Federation 
the fact that it is in possession of nuclear weapons has a good excuse to 
do whatever it wants. That's it.

And so far, all of us--and of course, the countries like Ukraine, like 
Moldova, like Georgia, they're looking upon the United States as the leader 
of the democratic world to assist us to find the answers on those 
questions.

They are very tough and the harsh reality is that we don't know how to 
address this issue.

Ms. Bilych. I mean, obviously, the question is also for political experts. 
And it's very complex. But I think at home here we have to ask ourselves 
and look very deep into all those issues and think, of course we have to 
talk to Russian Federation. But we have to ask ourselves, can you partner 
with Russia on other tasks? Is this the partner who can just go and 
dismantle the international law and order in one day, just by someone's 
desire and ambition?

We have to be very careful and not to--and with our terminology, with our 
definitions, and to think. Because what's happening in eastern Ukraine, 
obviously we're talking about Crimea today, but I think our colleagues are 
very correct about the complexity of the issues.

On Wednesday at the U.N., we heard Georgia testifying with Lithuania and 
other countries that they witnessed firsthand what's going on in Ukraine. 
They can testify that it's pretty much the same what they went through, 
about Moldova's similar experience we heard a year ago during our first 
report presentation.

So it's very complex. Now, as we look for other solutions in the Middle 
East, can you really partner with a country that exports terrorism and 
doesn't believe in human rights, on other tasks?

I was raised in Ukraine, and Ukrainian author Ivan Franko wrote a very 
famous fairy tale about the sneaky fox who stole a chicken. And then 
manipulated other animals to a point--that he appointed himself a presiding 
judge over his own case.

So I think there is so much irony in all of this. And we have to ask, we 
have to look into ourselves and look into our values.

That's why I specifically brought those quotes and looked into those quotes 
and thought that's what I believe. That's why I do believe that Ukrainians 
at Maidan stood for something very similar to what we believe here in the 
United States and in other developed countries. They may still have to 
figure it out, have to deal with all this that they have on their plate, 
but values-wise, I do believe, and human rights-wise, they stand for the 
same rights we stand for here in the US.

And it's usually the people of the Russian Federation have to figure out 
what their value system is. And it might be a much longer process. I mean, 
we have to also work with them, but we cannot just be very arrogant and 
ignorant of those questions and then just to try, get over and wake up and 
not to deal with those questions. Thank you.

Mr. Klymenko. [Through interpreter.] [Off mic]----please say a few words, 
too.

So we need to change a lot of different formats. We need to change the 
format of the U.N. We need to change the format of NATO, the Articles 5 and 
6 of the Atlantic agreement.

And since Ivanna commented that the legal system has practically been 
destroyed with these actions by the Russian Federation, we need to change 
now and create new system. And the sooner the civilized world understands 
that that's what needs to happen and starts acting upon it, the sooner 
there will be real changes.

Mr. Deychakiwsky. Thank you.

Oh, OK, one more question, and that's it. We need to wrap it up, 
unfortunately.

Questioner. I just have a very quick question. I first of all want to thank 
Mr. Yatsenko for talking about his case in public today. I know it must 
have been a difficult conversation, difficult thing to talk about.

Since we know that the situation in Crimea right now has deteriorated since 
the blockade and the blackout, I was just curious, since we don't have good 
sources of information about what's really happening on the ground in 
Crimea, if some of you could just briefly comment. I'm sure you have 
professional, personal and other friendship networks in Crimea. What is the 
public sentiment there? Because I don't think we can rely on any sort of 
polling that's coming out of Crimea these days.

What is the perception of people now towards their Russian occupiers, the 
Russian authorities? Has it changed as a result of recent events 
specifically? Thank you.

Mr. Yaremenko. [Through interpreter.] Thank you. So in Crimea, the 
population could be divided into three equal factions. So one-third are 
those who wanted Putin and who wanted to die in Russia.

And another third of the population are just what I would call regular 
consumers. They just don't really care who's in charge, Germans, 
communists, fascists, so long as I have food on the table I'm OK.

And finally, another third of the population are the conscious, so to 
speak, citizens of Ukraine. And so half of them, the 300,000, consists of 
Crimean Tatars and the other 300,000 consists of many different 
ethnicities, Russians, Ukrainians, Greeks and others.

We call all of them political Ukrainians.

And this one-third of the population now, for longer than a year, have been 
asking for this blockade.

And I personally received thousands of letters appealing, do something, 
stop feeding the occupant. So in other words, the political Ukrainians in 
Crimea perceived this blockade as something that Ukraine is beginning to do 
for the de-occupation of Crimea.

The mood of the first one-third of the population, the Putin supporters, 
we're not interested in their mood.

And with regard to the second one-third, the consumer population, their 
view of the situation is shaped exclusively by Russian TV, the ``Russia 
Today'' channel, which is a propaganda channel.

So in this way, the political Ukrainian population says we will take this 
kind of pain in order to, you know, cooperate in the return of Crimea. But 
of course, the rest of the population are lamenting in various ways and 
praying for Putin.

Thank you.

Mr. Deychakiwsky. OK, thank you very much.

I think with that I want to thank the panelists for their very interesting, 
informative, insightful presentations and responses to questions. You 
provide a lot of food for thought and concrete suggestions. So thank you 
very much.

And I want to thank the audience for your interest and wish everybody a 
happy weekend, enjoy your weekend.

Oh, I see Stacy here, our communications director--one more thing to add, 
the transcript will be up on our website probably by Tuesday, because it's 
usually 48 hours, 2 business days, on our website. And our website is 
www.csce.gov.

OK. And with that, the briefing's adjourned. Thank you. [Applause.]

[Whereupon, at 3:50 p.m., the briefing ended.]



                   A P P E N D I X

Prepared Statement of Ivanna Bilych

It is a great privilege and honor to speak at this venue today.

I am deeply grateful to Helsinki Commission, its leadership and our 
moderator Orest Deychakiwsky for hosting this very important round table. 
Even as a ten-year-old child growing up in Soviet Ukraine, I always knew of 
the Helsinki Commission. Back then I could not possibly know what exactly 
it did, but I knew it stood for something bigger that I could comprehend 
and imagine. I was right!--it stands for democracy, human rights, rule of 
law and simply morally the right thing.

Most of you know the great importance of the topic I am going to speak with 
you about, but for those for whom it may seem a bit remote let me remind 
you the words of one of the greatest men, William Allen White, who said 
that ``Wherever a free man is in chains we are threatened also, whoever is 
fighting for liberty is defending America.''

Another great man and our great President Franklin Roosevelt once said that 
``Freedom means the supremacy of human rights everywhere. Our support goes 
to those who struggle to gain those rights and keep them. Our strength is 
our unity of purpose. To that high concept there can be no end save 
victory.''

Ladies and Gentlemen, I would like to thank you all for coming today to 
discuss our latest report, ``The Human Rights on Occupied Territory: Case 
of Crimea.''

Thank you to the esteemed coauthors for their outstanding work and 
dedication to human rights, international law and order, global peace and 
security. I would like to extend my sincere and deepest gratitude to a very 
special woman, professor Mary Holland, who supervised the project. Thank 
you to David Glasgow, Assistant Director of the Public Interest Law Center 
for his guidance and support of this pro bono project. I would like to 
thank Matthew Mosner and Ethan Burger for their time and valuable comments 
to the early drafts.

Special thank you to all the editors designers, volunteers, experts who 
gave us their feedback on the second edition.

And thank you to a wonderful team from VOLYA Institute for their superb 
work and dedication to the second edition of this report and making it a 
reality!

Thank you to our Razom Partners for their support and understanding of the 
importance of the issues presented today.

A year ago at a different venue, in the United Nations, we gathered to 
discuss the legal dimensions of Russian actions in Ukraine, the occupation 
of Crimea and its illegal attempts to annex Ukrainian territory. To this 
day, the Russian Federation continues to occupy sovereign Ukrainian 
territory in Crimea and has violated international law by illegally seizing 
the Ukrainian peninsula. We still have to sort out all the implications and 
grave consequences of the illegal actions of the Russian Federation in 
Ukraine and find a solution to restore Ukrainian sovereign territory for 
people of Ukraine and for us as the international community individually 
and together.

What is very clear, however, is that practice of human rights in occupied 
Crimea is dire and continues to deteriorate. Every day Ukrainian citizens 
in occupied Crimea face unprecedented oppression and limitations of their 
rights. Serious and consistent violations of the civil, political, social, 
economic and cultural rights of Crimeans have been well-
documented by a variety of organizations including the United Nations, 
Human Rights Watch, international media outlets, reports from the 
undercover journalists within Crimea and various local organizations over 
the previous year. The illegitimate self-proclaimed Crimean and Russian 
authorities target those ethnic, religious, and national groups that oppose 
the occupation. Indigenous Crimean Tatars are frequently suspected of this 
sort of broadly defined ``anti-Russian activity.''

To help address this situation, to build on those findings and create a 
pragmatic guide for people both within Crimea and outside of the peninsula 
to understand the legal framework of the situation and in attempt to sort 
out the legal chaos that has been created by the illegal actions of the 
Russian Federation in Ukraine, an international team of lawyers based at 
New York University School of Law prepared this report as a pro bono 
service.

The purpose of the report is to assist individuals in Crimea, Ukraine, as 
well as around the world, working in academia, governments, international 
organizations, non-governmental organizations, businesses, and media to 
understand the nature of the human rights violations in the occupied 
territory, so that they are better equipped to defend and protect the 
internationally recognized expression of human rights.

The report or WHITE PAPER includes four parts and the Manual.

We analyzed the human rights situation in occupied Crimea, placing it 
within the context of:

<bullet>  applicable international standards, conventions and treaties;

<bullet>  authorities and entities responsible for protecting and providing 
human rights;

<bullet>  specific abuses of human rights by the self-proclaimed Crimean 
and Russian authorities;

<bullet>  legal precedents that apply to the occupied territory, and its 
legal regime.

The authors examined the historical and legal context, defined the primary 
rights that are being violated, give recommendations on what steps people 
in Crimea can take and outline actions for organizations.

In Part I we brought together several related threads to create the context 
for the current situation, covering:

<bullet>  recent history, from Crimea's transfer in 1954 to the so-called 
March 16, 2014 referendum to unify with the Russian Federation;

<bullet>  the Russian Federation's use of force to occupy Crimea in 2014;

<bullet>  post-World War II international agreements and treaties on 
states' sovereignty and territorial integrity.

In Part II we outlined and examined 21 distinct human rights that are 
provided for by international and domestic laws. We analyze each right 
individually with respect to international, Ukrainian and Russian law. The 
report focuses on:

<bullet>  civil and political rights: right to life, freedom from torture 
or any other inhuman treatment, access to justice, right to nationality, 
right to privacy and family rights, liberty and security of a person, 
freedom of thought, freedom of speech, freedom of assembly, right to truth, 
right to participate in state governance, right to equality before the law 
and freedom from discrimination; limitations of these human rights and 
freedoms are prohibited unless prescribed by law;

<bullet>  social, economic and cultural rights: right to own property, 
right to social security, right to an adequate standard of living, right to 
speak one's own language and maintain one's own cultural tradition, right 
to education, and right to health care.

In Part III we discussed and suggested remedies for individuals whose human 
rights have been violated, suppressed, encroached or otherwise denied. The 
general and specific remedies include the use of international, Ukrainian 
and Russian Federation legal instruments.

We concluded that Russian Federation's illegal occupation and attempted 
annexation of Crimea has created a continuous stream of human rights 
violations encroaching on or even prohibiting basic individual human rights 
and freedoms. The Russian Federation fails to comply with its obligations 
as an occupying power, and the Ukrainian government is not paying enough 
attention to the human rights issues in Crimea.

Remedies applying international law are not always available to victims 
with limited resources due to complex procedures, limited jurisdiction, and 
resulting lengthy proceedings. Our findings demonstrate the insufficiency 
of existing remedies for human rights violations and mechanisms of the 
entire international system of human rights protection with respect to 
Crimeans. The following recommendations are for those entities that can 
help ensure human rights enforcement and protection in Crimea:

1. The Ukrainian Government

2. The self-proclaimed Crimean and Russian Federation's authorities

3. The international community

4. NGOs, civil society and advocates on the ground

Existing national and international remedies are ineffective against such 
massive human rights violations as are occurring in Crimea. Self-proclaimed 
Russian Federation's authorities deny responsibility, and the Ukrainian 
government claims the lack of ability and resources to respond properly.

For this reason, the concerted efforts of governments and institutions 
worldwide are critical. Human rights organizations have reported 
extensively on human rights violations in Crimea and recommended ways to 
address issues affecting human rights in occupied Crimea. We concur with 
their recommendations, and provide additional recommendations.

In addition to the recommendations cited in the report published April 15, 
2014 ``Ukrainian Crisis: Its Legal Dimensions,'' further findings have led 
us to call on the Ukrainian, self-proclaimed Crimean and Russian 
authorities, civil society and the international community, to implement 
the following recommendations.

We expect our recommendations to Ukraine, Self Proclaimed Crimean and 
Russian authorities, international community and civil society and 
activists will prompt a solution, which will honor the Ukrainian people 
human rights desire and support for unitary, sovereign country, Ukraine's 
territorial integrity and democracy.

Among the key recommendations: we recommend that Ukraine continue to work 
closely with the UN and the international community to ensure Russia's 
troop withdrawal from Crimea and from the Eastern Ukrainian border.

We ``invented'' and proposed trifold logic to our recommendations. We ask 
the addressees of our recommendations to work on these tasks according to 
their respective roles, responsibilities, goals, and objectives. The 
Ukrainian government is advised to implement the recommended measures; the 
international community is encouraged to assist and monitor; and civil 
society--to demand implementation of the measures, and subsequently monitor 
their implementation. The Self-proclaimed Crimean and Russian authorities 
should comply with international law.

<bullet>  Creation of Special International Tribunal

<bullet>  Creation of special database

<bullet>  Creation of ad hoc markets

<bullet>  Securement of free communication and access to true information

<bullet>  Securement of ongoing monitoring of human rights situation

A crucial part of this report is a Human Rights Protection Guide [``the 
Manual'']. The Manual is designed to help residents of Crimea take steps to 
improve their current situation directly. We concluded that people in 
Crimea are economically deprived and legally underserved, often knowing 
little about their rights and being unable to demand their application. 
Therefore, the aim of the Manual is to provide Crimeans of all ethnic and 
religious backgrounds with access to justice by explaining their 
fundamental rights. The Manual lists a number of fundamental rights that 
apply to Crimea, according to international human rights treaties, as well 
as pursuant to the articles of the Constitutions of Ukraine and the Russian 
Federation. Finally, the Manual includes a directory of Ukrainian and 
international human rights protection organizations and advocacy groups, so 
that Crimeans know where to report violations and seek advice or 
explanation.

To conclude I would like to remind a quote from John Prendergast, a great 
human rights activist, who said that ``The biggest road block to action on 
genocide and other human rights crimes is ignorance. Most people just don't 
know that such things are happening, and often, if they have a vague idea 
they are happening, there is a feeling that there is nothing that can be 
done to stop these crimes.''

Franklin Roosevelt also said that ``We must remember that any oppression, 
any injustice, any hatred, is a wedge designed to attack our 
civilization.''

Russia's actions are striking at the heart of international law and order 
that has helped to prevent war since the World War II, and if we allow 
ourselves to let it be, we run into much bigger risks.

I encourage you today, to utilize your great expertise, this venue, power 
any and all means to find a meaningful solution to stop the wedge of 
oppression, injustice, hatred towards the people of Ukraine in occupied 
Crimea.

               Prepared Statement of Bohdan Yaremenko

Ladies and Gentlemen:

Our NGO Maidan of Foreign Affairs together with our partner web-portal The 
Black Sea News represented here by its Editor-in-Chief Mr. Andrii Klymenko 
are not only covering the Russian military aggression in Ukraine since mid-
February 2014 but is the only Ukrainian institution that summarized the 
picture and published the Strategy of Returning the Crimea last year.

We are convinced that the situation in Crimea and Eastern Ukraine is 
directly connected and should be kept in the same frame for political 
analysis. Honestly speaking the picture will still be incomplete without 
analyzing the Russian intervention into Ukraine aside of what is happening 
in Transdniestria in Moldova, Abkhazia and Ossetia in Georgia.

The time limits will not allow me to do it in a proper way.

Nevertheless, the issue of human rights in the conflict areas in Ukraine 
and in particular in the annexed Crimea should not and cannot be properly 
addressed without broader overview of the political, military, security, 
economic and social situation.

So, we decided to share the responsibilities. With your permission I will 
cover the general issues in order to allow my dear friend and colleague Mr. 
Andrii Klymenko to concentrate fully on the issues of human rights.

Political preferences were not the main reason for the annexation of the 
Crimea (the local parliament, elected in 2012, included only 3 deputies out 
of 100 who represented the pro-Russian movements and organizations).

A fear of ethnic and interreligious conflicts has been artificially 
enforced by the Russian propaganda within a short period of time as the 
active phase of the annexation plan was being implemented (in winter 2014); 
this fear was an additional factor that reinforced the overall concerns of 
the citizens.

The main propaganda messages directed towards the citizens of Ukraine from 
the Russian side covered the issues of the ``quality of life'' and 
``quality of government'' (the media has created an illusion of greater 
efficiency of the Russian authorities compared to the Ukrainian ones, and 
of the readiness of the Russian state to ensure the better socio-economic 
life conditions without any efforts made by the citizens of Ukraine).

Invasion Scenario:

1. Presence of the Russian citizens, including the military personnel from 
the intelligence agencies, primarily from the Main Intelligence Directorate 
of the General Staff of the Ministry of Defense of the Russian Federation. 
Together with the pro-Russian activists among the local residents and 
citizens of Ukraine, they organized rallies, fights, mass disturbances, and 
violent confrontations with patriotic citizens.

2. A premeditated escalation used as an excuse for creating the self-
defense units that include both local residents and the Russian citizens 
infiltrated specifically for such purposes.

3. In the Eastern Ukraine, these units seized administrative buildings and 
paralyzed the activity of the state bodies, which in turn stepped away from 
solving problems, and in some cases supported anti-state actions. In 
Crimea, the self-defense units were a cover-up that was covering the covert 
actions of special units of the army of the Russian Federation. They were 
the ones who seized the government agencies and blocked military units of 
the Ukrainian army.

4. Establishment of the pseudo governments that took over the 
responsibility over the management of the occupied territories. The 
mentioned pseudo governments imitated a freedom of expression which was 
used as justification or explanation of the aggression.

The inability or unwillingness of the legitimate authorities to take 
measures for a quick and decisive suppression of these trends, an attempt 
to calm down the protesters or aggressors was regarded as weakness, 
encouraged the aggressor, demoralized the supporters.

Corruption, common business interests of the local and central authorities 
with the relevant public and private bodies of the aggressor state were 
actively used as mechanisms for influencing and compromising the political 
will for resistance.

The annexation of Crimea has become the first case of invasion of the 
territory in Europe since the Second World War. The mentioned situation 
calls into question the existence or the effectiveness of international law 
and the international security guarantees, thus threatening the existing 
world order.

The Current State of Affairs

A ``hot phase'' of the armed conflict in the Eastern Ukraine is still 
ongoing. However, the so-called Minsk agreements do not function as a 
ceasefire mechanism, do not lead to the establishment of sustainable peace 
and do not provide a solution to the problem of the territorial integrity 
restoration of Ukraine.

The escalation phases coincide with the international negotiations on 
peace-settlement (they are effectively used by Russia as a tool of pressure 
on negotiating parties).

The occupied areas of the Donetsk and Lugansk regions suffered from a 
large-scale destruction of the infrastructure and residential buildings 
resulting from the combat operations.

An industrial infrastructure was partially destroyed, plundered and 
transported to Russia (in particular, defense enterprises were completely 
dismantled and transported to Russia). The current condition of the 
industrial infrastructure does not allow to predict a possibility of the 
restoration of the pre-war regional economy structure and, consequently, of 
the social structure of the population. About 2.5 million people (about a 
third of the overall number of inhabitants), mainly the most educated and 
active part of the society, became forced migrants and refugees.

Prospects for resolving the situation in the East of Ukraine (the problem 
of ``specific areas of Donetsk and Lugansk regions'') are uncertain.

Forced migrants and political fugitives from Crimea (about 40 thousand 
people) represented the most active and loyal citizens of Ukraine.

In general, the public mood in Crimea can be described as follows:

At the beginning of the Crimean occupation the residents were

fully satisfied with the Ukrainian legal liberalism,

not satisfied with quality of life,

not satisfied with the quality of government.

As a result of occupation, as for now the residents of Crimea

have not received the improvement of the quality of government, it actually 
deteriorated,

have not got better quality of life, it actually deteriorated,

have lost Ukrainian legal liberalism.

A phase of adaptation to the law of the occupying country in Crimea is 
over, and a process of reclamation of the assets of the annexed territory 
is ongoing--this process can be described as colonization.

Replacement or ``dilution'' of the Crimean population is taking place--
``the import of the Russians'', including the military personnel and their 
families, officers of the intelligence agencies and their families, 
officials and their family members, members of the Russian organized crime 
groups from the North Caucasian regions of Russia, is still ongoing. Thus, 
according to the official Russian statistics, the increase of number of the 
Russian immigrants in Sevastopol during the occupation was about 25,000 
people, or about 7% of the population. In the rest of Crimea, this rate is 
somewhat lower--10 thousand people, or 0.5% of the population.

The occupying authorities are developing Crimea mainly as a military base. 
The number of troops is about 50 thousand people, not including the members 
of the security agencies. The development process and increase of the 
military grouping has not yet been completed; however, according to the 
objectives defined by the Minister of Defense of Russia, the number of 
Russian troops in Crimea can be increased to 100-120 thousand people.

The invaders turned the Crimea to a rehabilitation center for the militants 
fighting in the east of Ukraine. Training camps for training of the 
mercenaries later directed to fight against the Armed Forces of Ukraine in 
the Donetsk and Lugansk regions have been established in Crimea.

Crimea has become a basic center of support of the Russian military 
grouping in Syria.

Forming a powerful military base in Crimea, Russia threatens both the 
southern regions of Ukraine and the existing Black Sea naval 
communications, as well as the European countries--NATO member-states 
(Bulgaria, Romania, and Turkey).

The road infrastructure in the occupied territories has been fully or 
largely destroyed. During the period of the Crimean occupation, the loading 
of the roadbed had been increased in tens of times, primarily owing to the 
movement of large numbers of heavy military vehicles (armored vehicles, 
tanks and other heavy equipment). Intensive military building in Crimea led 
to accelerated destruction of roads. All programs of the road construction 
of Russia in Crimea turned to be a usual ``patching work'' of a very poor 
quality.

The Crimean economic assets are being stolen or lose their capacity. 
Railways, ports are not actually used.

Without proper irrigation, the agricultural soils lose their fertility, 
while their salinity is increasing. Natural resources of Crimea are being 
destroyed. The unscrupulous extraction of the fresh underground water has 
led to the raise of saline groundwater level in some areas (Kerch 
Peninsula), leading to increase of the soil salinity; furthermore, it 
complicates the water supply to the population.

Given the intense military building, the occupants increase the volume of 
the quarry mines development, and open up the new quarries for gravel 
extraction, which can result in destruction of the microclimate, e.g. in 
the valleys of the Bakhchisarai area (Alma Valley).

The situation with the quality of life in Crimea has developed in such a 
way that under systematic reduction of employment (according to our 
calculations, since the annexation about 200 thousand jobs, primarily in 
tourism, restaurant and hotel business, services, small business and 
transport, have been lost), the available vacancies are not filled. Today 
there are 2,000 vacancies of municipal officials in Crimea, as well as a 
large number of jobs in health care; generally, it is difficult to fill the 
vacancies of ordinary employees in the business structures.

What happens next?

Developments in Eastern Ukraine are hard to predict because the hot phase 
of the conflict is still ongoing. Russia as a state-aggressor has 
sufficient resources to continue military actions, its probable political 
purposes in Ukraine and in Europe have not been achieved, the means of 
influence on Russia, such as international sanctions, just begin to 
influence the Russian economy and the political will of the leadership of 
the Russian Federation to continue the aggression, but their duration in 
time is uncertain.

In Crimea, the main trends affecting the current developments are as 
follows:

1. The main priority is to develop a territory as a military base

Consequences:

<bullet>  Posing threat to security of the Black Sea region, the EU Member 
States and NATO [Bulgaria, Romania and Turkey], change of the military 
balance, namely within the framework of the Agreement on Conventional Armed 
Forces in Europe, and possibly within the framework of the agreements in 
the field of strategic nuclear weapons control; persistent military threat 
to the entire southern coast of Ukraine with the purpose to implement the 
plan of setting up a land ``corridor'' between the Russian Federation, 
Crimea and Transnistria, militarization of the region, expansion of the 
Russian military presence in Syria and the consequent armed confrontation 
and civil war in that country;

<bullet>  Further enforcement of the policy of ``forced loyalty'' towards 
the inhabitants of the Crimea, which will lead to further violation of the 
human rights (the pressure on dissidents, on disloyal groups of 
population), strengthening control over the media;

<bullet>  Implementation of strategic infrastructure building projects--a 
bridge across the Kerch Strait, the energy bridge;

<bullet>  The need to increase supply of building materials and equipment 
(primarily the metal, timber, construction mixes, crushed stone), which 
will lead to increased pressure on the road infrastructure and increased 
use of local natural resources, which, in turn, results in poor climatic 
balance in the number of sub-regions of Crimea.

2. Lack of economic development strategy, lack of managerial human 
resources

Consequences:

<bullet>  A trend towards reducing the number of small and medium-sized 
enterprises (the set priority is to develop and support the large 
companies, mainly in the defense sector); unemployment growth; reduction of 
the tax capacity in the region, increase of dependence on direct funding 
from the federal budget of Russia. Redirection of the budget financial 
flows in Russia, financing deficit in other regions of the Russian 
Federation, concealed contradictions and competition for obtaining a 
funding between different regions of the Russian Federation;

<bullet>  Decrease of the standard of living; decrease of the consumer 
purchasing power of the population [increase of prices, fewer choice for 
consumers, lowering of the quality of food]; increase of the social 
stratification and increasing differences in living standards among the 
citizens funded by the state/federal/regional budgets, and self-employed 
people and employees of commercial structures; gradual growth of social 
tension;

<bullet>  Continuation of policy of the excessive use of infrastructure and 
natural resources, environmental degradation--changing of the climatic 
balance, loss of underground fresh water deposits, lowering of fertility, 
of the quality of agricultural lands, the gradual reduction of their area. 
As a result, lowering of the ability of Crimea to ensure the self-sustained 
food security.

3. Continuation of the trend towards resettlements of the citizens with 
simultaneous degradation of democratic institutions, human rights and 
freedoms, increase of corruption and criminalization of a daily life.

At the same time, Ukraine is going to gradually expand the policy of 
Peninsula blockade, trying to create enforcement mechanisms to engage 
Russia in the dialogue on the annexation. Furthermore, Ukraine will be 
working on the creation of mechanisms for establishing the communications 
with the population of Crimea [information disseminating channels, 
definition of the legal status, creation of opportunities to exercise the 
rights and protect the interests of the citizens in the territory of 
Ukraine, definition of the status of self-government bodies of the Crimean 
Tatar people and Crimeans on the whole, support of their activities].

Thank you for your attention.

             Prepared Statement of Andriy Klymenko

Dear Ladies and Gentlemen,

Please allow me start with the statement of the absence of any significant 
human rights violations in Crimea prior of the annexation noted by the 
specialized international bodies like Council of Europe or let say the US 
State Department. As well there were no reports or any statements on the 
issue done by the Russian Federation.

The existed problems in the field of the human rights were merely related 
to the underdeveloped transitional democratic or law-enforcement system in 
Ukraine. Some noted occasional situations of the conflicts on the grounds 
of political affiliation, ethnic or religious routs ironically were always 
created by the pro-Russian activists, Russian neo-Nazis etc.

Today, the citizens of Ukraine residing in the temporarily occupied 
territory of the Autonomous Republic of Crimea are actually deprived of a 
number of fundamental rights and the possibility of their protection, 
particularly by drawing attention of international human rights 
organizations to their problems.

Forcing citizens of Ukraine to join Russian citizenship is one of the tools 
for invasion of the occupied territory by Russia (the owners of the 
Ukrainian passports are deprived of the opportunity of education, medical 
services, immovable property registration, obtaining utilities, employment, 
etc.).

For some categories of the citizens of Ukraine, the renunciation of 
Ukrainian citizenship was delivered as an ultimatum (employees and 
personnel of certain commercial structures, such as Ukrtelecom, etc.).

The aggressor is implementing a large-scale program of forcing the 
residents of Crimea to loyalty. Potentially disloyal persons are considered 
to be:

- journalists, civil activists, members of NCA (national competent 
authority), whose organizations and the media were created prior to the 
occupation;

- Crimean Tatar people in general, members of the autonomous bodies of the 
Crimean Tatar people (Kurultai, Medzhylis, 230 regional Medzhylis offices), 
clerical leaders of the Muslims (mainly of Crimean Tatars);

- ethnic Ukrainians or persons of different ethnic origin with Ukrainian 
political identity, including religious leaders and members of religious 
communities of the Ukrainian Orthodox Church of the Kiev Patriarchate, 
Catholics, Greek Catholics (both Ukrainians and immigrants from Poland, 
Belarus, the Baltic States).

The Crimean Tatars are put to systematic pressure as the most cohesive 
community that openly expressed its opposition to the occupation of Crimea 
by the Russian Federation.

The number of secret services employees per capita in Crimea is 3 times 
higher than the similar rate for the rest of Russia. Methods of their work 
are intimidation, total control of telephone calls, Internet communication, 
and ``brainwashing'' through the media, accusations, separation of certain 
groups of citizens on ethnic or religious grounds. Activists or citizens 
disloyal to Russia are called in for many-hours-long interrogations, 
``preventive interrogations'', searches are carried out in their homes, 
raids are carried out in the areas of compact settlement of the Crimean 
Tatars, the troops block the certain localities or settlements, the 
authorities organize deportation from Crimea, exclusions, criminal 
prosecution based on fabricated evidence and false accusations, kidnapping, 
murders.

The State authorities of Russia have developed the whole arsenal of 
intimidation methods in the Republic of Ichkeria and other regions of the 
North Caucasus.

Despite the declared trilingualism in Crimea (Russian, Ukrainian, Crimean 
Tatar) invaders not only eradicate the Ukrainian language, but in general 
any mention of Ukraine. There are reported cases of public burning of 
books, schoolbooks, plates and inscriptions in the Ukrainian language in 
front of the students, the Ukrainian schools and classes are being closed 
down.

Russia makes active efforts to establish ``information ghettos'' on the 
Crimean peninsula, in which citizens of Ukraine will be deprived of the 
opportunity to receive information from Ukraine. These efforts include a 
complete cessation of Ukrainian TV and radio channels broadcasting, 
disconnection of the Ukrainian mobile operators and internet service 
providers.

Today all independent media maintaining pro-Ukrainian position ceased their 
existence and work in the Crimea (either disbanded or moved from the Crimea 
to other regions of Ukraine). This particularly has the impact on the 
online media, since the Ukrainian legislation did not require their 
registration, although they are equivalent to the print media under the 
laws of the Russian Federation.

As of today, the only propaganda media spread in Crimea has an openly pro-
Russian orientation.

On 9 May 2014, the Russian Federation has introduced the amendment to the 
Criminal Code, which provides for a penalty of imprisonment from 3 to 5 
years for journalists and ordinary citizens for disagreeing with the fact 
that Crimea belongs to Russia or for calls for its return to Ukraine 
(Public calls to commit actions aimed at violating the territorial 
integrity of the Russian Federation). Criminal procedures under the 
relevant article are initiated both against the citizens of Ukraine and the 
Ukrainian media that operate in the mainland Ukraine, and are likely to be 
used for the persecution at the international level.

The Russian authorities have eliminated the possibility of monitoring the 
compliance with human rights. Independent international human rights 
organizations in the occupied territories are not allowed to implement such 
monitoring. Instead, the Russian authorities are actively working to 
organize visits of international delegations and media to Crimea for 
propaganda purposes.

Actions of the occupying power related to implementation of property rights 
are marked by massive violations of rules and practices accepted in the 
civilized world. There is a massive expropriation of all the state property 
of Ukraine in the territory of Crimea, which is called the 
``nationalization'' by the Russian propaganda. More than 400 companies have 
been expropriated, and the list is constantly growing. This list includes 
over 200 resorts, all the ports, including the airport, water and energy 
supply facilities, railways, wineries, grain elevators and agricultural 
enterprises.

The objects that belonged to Ukraine or to the trade unions and other 
public organizations, as well as to the higher education institutions and 
the Academy of Sciences etc., have also been expropriated.

As for the private enterprises, their formal expropriation was not carried 
out. However, there are schemes of raider takeovers and changes in a 
company management board that have been implemented. The ``Crimean self-
defense'' units are used as a component of the forcible takeover in the 
course of such actions. An information component includes distribution of 
false information through the media on the bankruptcy or financial problems 
of such companies, on the large debts they have, and such justifications 
call for their ``nationalization''. Such schemes are currently applied 
selectively to those owners who support the idea of territorial integrity 
of Ukraine and oppose the occupation.

Because of the time limits I will gladly provide more comments or examples 
during the Q&A session.

            Prepared Statement of Yuriy Yatsenko

My name is Yuriy Yatsenko. I am a Ukrainian citizen, who was illegally 
arrested and detained by the Russian Federation for over a year, for 
political reasons. Others who have suffered and continue to suffer the same 
fate are Nadia Savchenko, Oleg Sentsov and others, of whom you probably 
have never heard.

I was arrested in May 2014 in Kursk region of the Russian Federation, to 
where I traveled together with my friend on a business trip. I was detained 
by the police during a routine document check that the Russian police often 
practice. At the police department, an agent of the FSB (Russian Federal 
Security Service) showed to me a photograph of myself taken during the 
Euromaidan protests, which, as I suspect, he had found on social media. The 
agent demanded that me and my friend provide false testimony about being 
recruited either by the Right Sector (Ukrainian right-wing party, heavily 
demonized by the Russian propaganda) or personally by the head of the SBU 
(Security Service of Ukraine) to commit acts of terrorism in Russia. At the 
time, I was just an ordinary student from Western Ukraine and simply could 
not believe that such absurd accusations were being made against me. By the 
way, my western Ukrainian origin became an additional reason for the 
Russian law enforcement personnel to harass me.

After we both refused to incriminate ourselves, they began beating us at 
regular intervals. We were also offered an option of going on Russian TV 
channels and giving a predetermined speech about being sent to Russia from 
Ukraine to commit subversive acts, but instead turning to the FSB for 
protection, to save us from the Ukrainian authorities and their 
persecution. Once again, we refused to give false testimony, so the 
harassment continued, turning into both physical and psychological abuse. 
For example, they threatened to hand me over to the head of the Chechen 
Republic Ramzan Kadyrov. ``We'll transfer you to Kadyrov, you'll be his 
dog,'' as one FSB official threatened me.

At first, the abuse and the beatings were constant. I remember one 
particularly brutal instance. Some special forces soldiers, wearing masks 
and bearing no insignia on their uniforms other than the colors of the 
Russian flag, put a bag over my head, took me into the woods and tortured 
me. They hanged me by the handcuffs for hours and beat me in the head, 
groin and other parts of the body, as well as strangled me. They also 
simulated an execution, firing a gun next to my head.

The next morning, which was two weeks since my arrest, I used a shaving 
blade to cut my abdomen and the veins on my arms to stop this abuse. Only 
then I was taken to the hospital, from where I finally managed to inform my 
family about my whereabouts.

Despite the court decision about our deportation, both my friend and I were 
illegally kept at a special detention center for illegal immigrants for 
three months. During this period, the beatings and the torture was 
constant. Only three months later, my friend was released and taken to the 
Ukrainian border, while I was suddenly charged with the crime of possessing 
explosives.

Despite the absurdity of these accusations and the absence of any evidence, 
the court found me guilty. At first, I was sentenced to two years of 
imprisonment, but shortly afterwards, an appeal court reduced the sentence 
to 9 months. Since by that time I had already spent a year in detention, I 
was released. Throughout this year, in addition to all the other abuse I've 
mentioned, I had been regularly placed into the punishment cells and 
solitary confinement.

The fact that I'm free now is a testament to the efforts of the publicity 
campaigns, international pressure, and coordinated work of human rights 
advocates and lawyers. When I was in detention, I was visited by the guards 
from time to time, informing me that another article about me appeared in 
the press, or that another press-conference dedicated to my case was held. 
They seemed to be alarmed by that, and kept saying that this should be 
stopped, that everything should be ``done quietly''. That is why all public 
events in support of the prisoners are extremely important, because they 
give a clear signal to the repressive regime that it is being watched 
closely and that none of the prisoners are forgotten.

As of today, at least 13 Ukrainians are detained illegally somewhere in the 
Russian Federation, and at least 8 such prisoners are being held in 
occupied Crimea, both Ukrainians and Crimean Tatars. The criminal cases 
against them are fabricated, most of them have been brutally tortured, some 
of them have been deprived for over a year of their right to meet with an 
attorney or a Ukrainian consul. These are people of various ages, 
professional backgrounds, and political views, but they share one thing--
their lives have become an instrument of the Russian state-sponsored 
propaganda that has created the image of Ukraine as a mortal enemy of 
Russia. The Kremlin officials constantly look for the means and the reasons 
to justify their hybrid war against Ukraine. That is why innocent Ukrainian 
citizens are proclaimed to be terrorists, spies, and fascists.

I am appealing to you on behalf of the campaign #LetMyPeopleGo. There are 
no independent courts in Russia, that is why politically motivated cases 
have no chance of being decided fairly. Only international pressure can 
help achieve the release of those detainees. We are waiting for the return 
home of Nadia Savchenko, Olexandr Kolchenko, Oleg Sentsov, Gennadiy 
Afanasiev, Olexii Chirnii, Sergiy Lytvynov, Mykola Karpiuk, Stanislav Klyh, 
Olexandr Kostenko, Haiser Dzhemilev, Yurii Soloshenko, Valentyn Vyhyvskii, 
and Viktor Shur. We also demand that Crimea be deoccupied and that everyone 
be released from the places of detention: Akhtem Chyihoz, Ali Asanov, 
Mustafa Dehermendzhy, Yuriy Ilchenko, Ruslan Zaytullaev, Nuri Primov, 
Rustam Vaytov, Ferat Sayfullaev. It is likely that this list is not 
complete. We may even be unaware of what other prisoners have been 
illegally detained. Nevertheless, we demand that the Russian Federation 
release ALL of the prisoners subject to politically motivated persecution.

                Prepared Statement of Anna Fotyga

Honorable Members of the U.S. Congress, Excellencies, Dear Ukrainian 
Friends, Ladies and Gentlemen,

It is my honor and privilege to speak to you advocating the cause of 
Ukraine and in particular indicating the awful situation, awful violation 
of human rights in Crimea after the illegal annexation of this territory by 
the Russian Federation. I still remember my observing the Ukrainian 
presidential elections in 2004, and how much I counted on changes in this 
country, on genuine cooperation within our region and possibility to enjoy 
freedom, right to self-determination, and to peacefully design our common 
future. All of those dreams were taken from Ukraine, and to some extent 
from whole our region. First after the Russian invasion on Georgia, and 
after annexation of Crimea and further creeping of Russia inspired so 
called ``green people'' towards the eastern parts, east and southern parts 
of Ukrainian territory. I still remember this act of annexation signed by 
Vladimir Putin in Kremlin on March 18th end enormous audience to this 
performance or theatre. It was really a blow to all of us.

Before annexation of Crimea, local community, despite poverty of Ukraine 
and necessity to make a real jump in order to get closer to Western 
society, enjoyed reasonable freedom. There were schools for minorities, 
there were free media, the NGOs used to flourish, there were Crimean Tatars 
starting to come back to their homeland, home territory. It was not perfect 
arrangement for them after decades and centuries of migration to Russia. It 
was perpetrated, forced by Stalin, and earlier the rulers of Russia. But 
they started to make their living, they had considerable possibility to 
elect their representatives, including to the chamber of Ukrainian 
Parliament, Verkhovna Rada. I have contacts with leaders of Tatar 
community, Mustafa Cemilev and the deputy to Verkhovna Rada, Refat 
Chubarov. They speak about atrocities imposed on Tatar population of Crimea 
after annexation. Closing of schools, disappearing of youth, inability to 
move freely, inability to join their families living elsewhere, in other 
territories. Because of their earlier suffering they decided to stay there. 
Actually, I really welcome variety of reports on the situation of human 
rights in occupied by Russia territory of Crimea, and all these reports are 
of excellent quality. I was fortunate to participate in many debates here 
in the European Parliament including the presentation of the report. I 
consider it extremely valuable, including parts referring to energy 
security, and energy or resources used by Russian Federation as a tool for 
oppression of their neighbors. Including and in particular, to oppress 
Ukraine.

All our thoughts, all our efforts are with this country and people of 
Ukraine fighting for their freedom because we consider it necessary to 
prevent freedom, independence of countries of whole region of Central and 
Eastern Europe. They simply fight our cause.

 


  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                        *	*	*

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                 	*	*	*

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                   	*	*	*

                    http://www.csce.gov    @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
